<html>
<title> - ADMITTING SYRIAN REFUGEES: THE INTELLIGENCE VOID AND THE EMERGING HOMELAND SECURITY THREAT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


            ADMITTING SYRIAN REFUGEES: THE INTELLIGENCE 
             VOID AND THE EMERGING HOMELAND SECU-
             RITY THREAT

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                            COUNTERTERRORISM
                            AND INTELLIGENCE

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 24, 2015

                               __________

                           Serial No. 114-22

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                   

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                               
                     U.S. GOVERNMENT PUBLISHING OFFICE
96-168 PDF                  WASHINGTON : 2015                     
_______________________________________________________________________________________                               
 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="eb8c9b84ab889e989f838e879bc5888486c5">[email&#160;protected]</a>  

                            
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                   Peter T. King, New York, Chairman
Candice S. Miller, Michigan          Brian Higgins, New York
Lou Barletta, Pennsylvania           William R. Keating, Massachusetts
John Katko, New York                 Filemon Vela, Texas
Will Hurd, Texas                     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Mandy Bowers, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
            Hope Goins, Minority Subcommittee Staff Director
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Brian Higgins, a Representative in Congress From 
  the State of New York, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................    26
  Prepared Statement.............................................    26
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security.......................................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5

                               Witnesses

Dr. Seth G. Jones, Director, International Security and Defense 
  Policy Center, Rand Corporation:
  Oral Statement.................................................     7
  Prepared Statement.............................................     8
Mr. Thomas Fuentes, Assistant Director (Retired), Federal Bureau 
  of Investigation...............................................    14
Dr. Daveed Gartenstein-Ross, Senior Fellow, Foundation for 
  Defense of Democracies:
  Oral Statement.................................................    15
  Prepared Statement.............................................    17



The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence:
  Statement of HIAS..............................................    32
  Statement of Syrian Community Network (Chicago, IL), Syrian 
    American Medical Society, Karam Foundation, Syria Relief and 
    Development, Syrian Expatriates Organization, Watan USA, 
    Rahma Relief Foundation, Hope for Syria......................    32
  Statement of Mirna Barq, President, Syrian American Council....    34
  Statement of Lutheran Immigration and Refugee Service..........    35
  Statement of CWS, Church World Service.........................    37

 
   ADMITTING SYRIAN REFUGEES: THE INTELLIGENCE VOID AND THE EMERGING 
                        HOMELAND SECURITY THREAT

                              ----------                              


                        Wednesday, June 24, 2015

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 311, Cannon House Office Building, Hon. Peter T. King 
[Chairman of the subcommittee] presiding.
    Present: Representatives King, Barletta, Katko, McCaul, 
Higgins, Keating, Vela, and Thompson.
    Mr. King. Good morning. The Committee on Homeland Security 
Subcommittee on Counterterrorism and Intelligence will come to 
order. We are waiting for the Ranking Member, who has been 
detained. He has graciously said we could start the hearing 
without him. He will be coming shortly, as will, I believe, the 
Chairman of the full committee.
    So, the subcommittee is meeting today to hear testimony 
from three distinguished experts regarding the security 
situation in Iraq and Syria and to review potential 
vulnerabilities in the refugee screening process. I would like 
to welcome the Members of the subcommittee and express my 
appreciation to the witnesses who are here today. Now I will 
make an opening statement.
    For Americans opening our doors to those who flee violence 
or exploitation, this is part of who we are as a Nation. 
America has a long and proud history of providing safe harbor 
to refugees. Refugees admitted to America include our former 
colleague, the late Congressman Tom Lantos from Hungary, 
scientist Albert Einstein from Germany, among thousands more 
who have contributed to American society. But we have also had 
refugees and asylum seekers who take advantage of U.S. safe 
haven to plot and carry out attacks.
    Over the last 4 years, the conflict in Syria has forced 
more than 3.9 million Syrians to flee their country, in large 
part due to the continued violence and savagery of ISIS, making 
this one of the world's biggest refugee crises without an end 
in sight. This year, the United States is expected to admit 
several thousand Syrian refugees, a number only expected to 
rise over the next few years, as well as almost 70,000 refugees 
from approximately 70 countries.
    We have heard open and closed testimony from Government 
officials and security experts expressing concerns that 
terrorist groups may seek to use Syrian refugee programs as a 
gateway to carry out attacks in Europe and America. It is 
essential that we have a discussion of the humanitarian crises 
and the security risks inherent in the process. I agree that 
the vast majority of Syrian refugees do not have ties to terror 
groups. However, we have been reviewing the current security 
vetting procedures for a number of months. I have a number of 
concerns, not the least of which is the lack of on-the-ground 
intelligence necessary to identify terror links.
    With the lack of stable foreign governments, foreign 
intelligence agencies, military intelligence, U.S. Embassies 
abroad, and access to human intelligence on the ground in 
Syria, the information and intelligence that we are able to 
acquire regarding individuals who seek to enter the United 
States is limited and oftentimes unverifiable. This 
significantly degrades the quality and accuracy of our vetting 
process.
    The United States has seen the danger of flawed refugee 
vetting, as well as the potential for refugees to be 
radicalized once they are in the United States. In 2011, I held 
a hearing on Islamic radicalization within the Somali-American 
community. This included the 20-plus cases of individuals, many 
refugees or children of refugees, who left the United States to 
join al-Shabaab. Since that time, we have seen about a dozen 
other Somali-American youths join ISIS.
    On May 25, 2011, two Iraqi refugees were arrested in 
Bowling Green, Kentucky and charged with conspiracy to kill 
U.S. nationals abroad, attempting to provide material support 
to terrorists and to al-Qaeda in Iraq, and 21 other charges. 
According to a July 2011 news article, the FBI was looking into 
potential terror ties for approximately 300 additional Iraqi 
refugees. Other cases include the blind sheik, Omar Abdel 
Rahman, the 1993 World Trade Bomber Ramzi Yousef, Mir Qazi 
involved in the 1997 CIA headquarters shooting, and, of course, 
the Tsarnaev brothers in Boston. While these bad actors 
represent a small percentage of the total number of refugees in 
the United States, we have to continuously monitor the changing 
threat environments.
    In just the past 3 weeks, there have been at least 10 
arrests by the FBI of U.S. individuals connected with ISIS and 
plotting attacks on the homeland. The on-line radicalization 
and calls by ISIS leadership for Islamists to carry out attacks 
in the United States are resonating with small pockets of U.S. 
society. There is little doubt that these calls for attacks are 
also resonating within the refugee community both domestically 
and those still abroad. This does not mean we should close our 
borders and not accept anyone. But we certainly need to be 
thoughtful and deliberative about the process and provide the 
American people with the most assurance that we are not 
importing terrorists.
    There is no doubt that a number of significant improvements 
were made to the refugee vetting process in 2011 after the 
alarming cases involving the Iraqi refugees. At the same time, 
there have been procedural failures that resulted in denial of 
refugee status for a number of Iraqi and Afghani nationals who 
put their lives on the line to help the United States during 
the military campaigns.
    We have invited a distinguished panel of experts testifying 
today to assess the current threat environment, to share their 
perspectives on refugee vetting, and to solicit their 
recommendations on what additional security measures should be 
considered.
    [The statement of Chairman King follows:]
                  Statement of Chairman Peter T. King
    For Americans, opening our doors to those who flee violence, war, 
and exploitation is part of who we are as a Nation. America has a long 
and proud history of providing safe harbor for refugees. Refugees 
admitted to America include Congressman Tom Lantos (Hungary) and 
scientist Albert Einstein (Germany), among thousands more who have 
contributed to U.S. society. But we have also had refugees and asylum 
seekers take advantage of U.S. safe haven to plot and carry out 
attacks.
    Over the last 4 years, the conflict in Syria has forced more than 
3.9 million Syrians to flee their country, in large part due to the 
continued violence and savagery of ISIS, making this one of the world's 
biggest refugee crises without an end in sight. This year, the United 
States is expected to admit several thousand Syrian refugees--a number 
only expected to rise over the next few years as well as almost 70,000 
refugees from approximately 70 countries.
    We have heard open and closed testimony from Government officials 
and security experts expressing concerns that terrorist groups may seek 
to use Syrian refugee programs as a gateway to carry out attacks in 
Europe and America. It is essential that we have a discussion of the 
humanitarian crisis and the security risks inherent in the process.
    I agree that the vast majority of Syrian refugees do not have ties 
to terror groups. However, we have been reviewing the current security 
vetting procedures for a number of months, and I have a number of 
concerns, not the least of which is the lack of on-the-ground 
intelligence necessary to identify terror links.
    With the lack of stable foreign governments, foreign intelligence 
agencies, military intelligence, U.S. embassy support, and access to 
human intelligence on the ground in Syria, the information and 
intelligence that we are able to acquire regarding individuals who seek 
to enter the United States is limited, and oftentimes unverifiable. 
This significantly degrades the quality and accuracy of our vetting 
process.
    The United States has seen the danger of flawed refugee vetting, as 
well as the potential for refugees to be radicalized once they are in 
the United States.
    In 2011, I held a hearing into Islamist radicalization within the 
Somali-American community. This included the 20-plus cases of 
individuals, many refugees or children of refugees, who left the United 
States to join al-Shabaab. Since that time, we have seen about a dozen 
other Somali-American youth join ISIS.
    On May 25, 2011, two Iraqi refugees were arrested in Bowling Green, 
Kentucky and charged with conspiracy to kill U.S. nationals abroad; 
attempting to provide material support to terrorists and to al-Qaeda in 
Iraq; and 21 other charges. According to a July 2011 news article (LA 
Times), the FBI was looking into potential terror ties for 
approximately 300 additional Iraqi refugees.
    Other cases include the Blind Sheikh--Omar Abdel Rahman, 1993 World 
Trade Center bomber Ramzi Yousef, Mir Aimal Kansi the 1997 CIA 
Headquarters shooter, and the Tsarnaev brothers.
    While these bad actors represent only a small percentage of the 
total number of refugees in the United States, we have to continuously 
monitor the changing threat environment. In just the past 3 weeks, 
there have been at least 10 arrests by the FBI of U.S. individuals 
connected with ISIS and plotting attacks in the homeland.
    The on-line radicalization and calls by ISIS leadership for 
Islamists to carry out attacks in the United States are resonating with 
small pockets of U.S. society. There is little doubt that these calls 
for attacks are also resonating within the refugee community--both 
domestically and those still abroad. This doesn't mean that we should 
close our borders and not accept anyone, but we certainly need to be 
thoughtful and deliberative about the process and provide the American 
people with the most assurance that we are not importing terrorists.
    There is no doubt that a number of significant improvements were 
made to the refugee vetting process in 2011, after the alarming cases 
involving several Iraqi refugees. At the same time, there has been 
procedural failures that resulted in the denial of refugee status for a 
number of Iraqi and Afghani nationals who put their lives on the line 
to help the United States during the military campaigns.
    We have invited a distinguished panel of experts testifying today 
to assess the current threat environment, share their perspectives on 
refugee vetting and solicit their recommendations on what additional 
security measures should be considered.

    Mr. King. Now I recognize the Ranking Member of the full 
committee, the gentleman from Mississippi, Mr. Thompson, for an 
opening statement.
    Mr. Thompson. Thank you very much, Mr. Chairman. It is good 
to see you. Let me welcome the witnesses to the hearing. I 
appreciate you holding this hearing.
    It is important for us in looking at the United States 
refugee program and see how it was impacted by the terrorist 
attacks of September 11. In the aftermath of those attacks, a 
review of refugee-related security procedures were undertaken. 
Refugee admissions were briefly suspended. Enhanced security 
measures were implemented. However, more than a decade after 
the enhanced security measures have been undertaken, with 
limited instances of fraud, there are those who believe that 
certain populations are unable to be properly vetted for 
security purposes.
    Rather than focus on the fear and concern surrounding 
Syrian refugees, I think we should focus on the known facts 
about the Syrian refugee population. The Syrian people are the 
primary victims of the violent conflict in Syria and the brutal 
actions of ISIL. They are the most vulnerable to the violence, 
and have known first-hand the cruelty of ISIL and other groups 
that have brought harm upon their communities. These refugees, 
like most others that arrive in the United States, are fleeing 
difficult, even life-threatening situations. The idea that they 
would be met with suspicion and hate upon arrival in the United 
States is an affront to the values we uphold and promote.
    Like Americans, most Syrians consider ISIL to be their 
enemy as well. Within the United States, the Syrian American 
Council has already partnered with the Office of Civil Rights 
and Civil Liberties within the Department of Homeland Security 
to organize community briefings for Syrian Americans focused on 
countering violent extremism. Groups like this encourage a 
robust Congressional debate on how ISIL can be stopped both at 
home and abroad. In fact, the leading demographic of those 
seeking or joining ISIL is in the United States who were born 
U.S. citizens, including citizens with no ancestry from major 
Muslim countries. Therefore, preventing vulnerable Syrian 
refugees from entering the United States will not address the 
Unites States issue with violent extremism.
    Time and time again, I have urged this committee not to 
have a narrow view of violent extremism which ignores violent 
extremist activities of domestic groups. Regrettably, last 
week's attack at the Emanuel AME Church in Charleston brought 
this issue into stark focus. Congress, the President, and the 
Department of Homeland Security need to come together with the 
State and local governments to honestly acknowledge that 
domestic terrorism is a threat to the safety and security of 
the American homeland, including the refugees who resettle 
within our borders.
    We must move beyond the perceived fears of the unknown and 
focus on credible threat information and allow the security 
vetting systems we have in place to work. I yield back, Mr. 
Chairman.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             June 24, 2015
    Mr. Chairman, I would like to thank you for holding this hearing to 
examine the United States' security screening process of Syrian 
refugees and the threats those refugees may pose to the United States.
    The United States refugee program was greatly impacted by the 
terrorist attacks of September 11. In the aftermath of those attacks, a 
review of refugee-related security procedures was undertaken, refugee 
admissions were briefly suspended, and enhanced security measures were 
implemented.
    However, more than a decade after these enhanced security measures 
have been undertaken with limited instances of fraud, there are those 
that believe certain populations are unable to be properly vetted for 
security purposes. Rather than focus on the fear and concern 
surrounding Syrian refugees, I think we should focus on the known facts 
about the Syrian refugee population. The Syrian people are the primary 
victims of the violent conflict in Syria and the brutal actions of 
ISIL.
    They are the most vulnerable to the violence and know first-hand 
the cruelty of ISIL and other groups that have brought harm upon their 
communities. These refugees, like most others that arrive in the United 
States, are fleeing difficult, even life-threatening, situations. The 
idea that they would be met with suspicion and hate upon arrival in the 
United States is an affront to the values we uphold and promote.
    Like Americans, most Syrians consider ISIL to be their enemy, as 
well. Within the United States, the Syrian American Council has already 
partnered with the Office for Civil Rights and Civil Liberties within 
the Department of Homeland Security to organize community briefings for 
Syrian Americans focused on countering violent extremism. Groups like 
this encourage a robust Congressional debate on how ISIL can be stopped 
both at home and abroad.
    In fact, the leading demographic of those seeking or joining ISIL 
in the United States are U.S.-born citizens, including citizens with no 
ancestry from majority-Muslim countries. Therefore, preventing 
vulnerable Syrian refugees from entering the United States will not 
address the United States' issues with violent extremism.
    Time and time again, I have urged this committee not to have a 
narrow view of violent extremism, which ignores violent extremist 
activity of domestic groups. Regrettably, last week's attacks at the 
Emanuel AME Church in Charleston brought this issue into stark focus. 
Congress, the President, and the Department of Homeland Security need 
to come together with State and local governments to honestly 
acknowledge that domestic terrorism is a threat to the safety and 
security of the American homeland, including the refugees who resettle 
within our borders.
    We must move beyond the perceived fears of the unknown and focus on 
credible threat information and allow the security vetting systems we 
have in place to work. I yield back.

    Mr. King. The Ranking Member yields back.
    I recognize the Chairman of the full committee, the 
gentleman from Texas, Mr. McCaul.
    Mr. McCaul. Thank you, Mr. Chairman. I want to thank you 
for holding this important hearing. We have been sounding the 
alarm for months on this issue and for good reason. America has 
a proud tradition of welcoming refugees and immigrants. But we 
need to make sure the extremists do not exploit this pathway to 
our country, especially from terrorist safe havens.
    Last year, the administration announced plans to surge the 
admission of Syrian refugees into the United States, including 
plans to resettle roughly 2,000 of them this year and thousands 
more next year. This is concerning for two reasons. First, 
terrorists have made it known that they want to manipulate 
refugee programs to sneak operatives into the West. Second, top 
National security officials have admitted that intelligence 
gaps in Syria will make it hard to weed them out of refugee 
pools.
    Testifying before our committee in February, the director 
of the National Counterterrorism Center called these refugees a 
population of concern given the expansive presence of ISIS and 
al-Qaeda in Syria. At the same hearing, the FBI's assistant 
director, Michael Steinbach, for counterterrorism, argued that 
identifying potential operatives would be difficult because, 
``our databases won't have the information we need.'' Simply 
put, we cannot screen applicants confidentially if we don't 
have good intelligence on the ground. We can't vet them 
properly if we don't have the proper databases.
    In light of these concerns, I sent a series of letters to 
the administration this year highlighting the risk of 
accelerating Syrian refugee admissions and requesting greater 
assurances regarding the screening process. The responses were 
inadequate. The administration was vague in explaining how the 
screening process would overcome the intelligence gaps. I just 
wrote the President 2 weeks ago, again, asking for answers and 
a Classified briefing for Members of this committee. We are 
still waiting for a serious response. I do not take this issue 
lightly. Terrorists are constantly probing our defenses and 
would not hesitate to exploit a program meant to save innocent 
people fleeing from violence for the purpose of attacking our 
homeland.
    I remind you that members of al-Qaeda in Iraq, the 
predecessor to ISIS, have already managed to sneak in to our 
country through refugee settlement programs. Two of these 
terrorists, arrested in 2009, were responsible for killing four 
Pennsylvania National Guard soldiers in Iraq. Yet they were 
gained entry and resettled in Bowling Green, Kentucky. That was 
when we had far better intelligence on the ground in Iraq to 
vet refugees, where in Syria we are dark.
    The situation today in Syria is even more chaotic, making 
it difficult to get the biometric, biographic, and other 
information needed to ensure individuals being admitted into 
our country do not intend to do our people harm. Since its 
founding, America has welcomed refugees from conflict zones in 
the darkest corners of the globe. We will not abandon that 
tradition. It embodies the compassion of our people and 
represents our deepest values. But we must also not abandon our 
vigilance. We cannot be naive.
    In Syria, we are witnessing the largest convergence of 
Islamist terrorists in world history. Some of these fanatics 
want to turn our refugee programs into a Trojan horse to carry 
out attacks here at home. We cannot allow that to happen. I 
hope the White House will do more to convince Congress and the 
American people that it is moving forward cautiously, 
appropriately, but most importantly with the security of the 
American people as a priority. If it does not, we may need to 
consider taking additional steps here on Capitol Hill. With 
that, Mr. Chairman, I yield back.
    Mr. King. I thank the Chairman of the full committee for 
his statement.
    Now we will proceed to the witnesses. Other Members of the 
committee are reminded opening statements may be submitted for 
the record. We are pleased to have a very distinguished panel 
of witnesses before us today on this important topic: Dr. Seth 
Jones, Mr. Tom Fuentes, and Dr. Daveed Gartenstein-Ross.
    Beginning with Dr. Jones, he is the associate director of 
the International Security and Defense Policy Center at the 
Rand Cooperation, as well as an adjunct professor at Johns 
Hopkins University School for Advanced International Studies. 
He served as the representative for the commander of the U.S. 
Special Operations Commands, the assistant secretary of defense 
of special operations. Prior to that position, he served as a 
plans officer and an adviser to the commanding general U.S. 
Special Ops in Afghanistan.
    He specializes in counterinsurgency and counterterrorism, 
including a focus on Afghanistan, Pakistan, and al-Qaeda. I 
have been reading all his bio. But the fact is, Dr. Jones has 
testified before this committee many times. He is a good friend 
of the committee and he works with us. We appreciate having you 
back here again today. Dr. Jones, you are recognized for 5 
minutes.

 STATEMENT OF SETH G. JONES, DIRECTOR, INTERNATIONAL SECURITY 
          AND DEFENSE POLICY CENTER, RAND CORPORATION

    Mr. Jones. Thank you, Chairman King. Thank you, Ranking 
Member Thompson and other distinguished Members of the 
committee. This is a very important hearing. I will divide my 
comments into three sections.
    The first is an update on the wars in Syria and, to a 
certain extent, Iraq. The second is to try to tie that back to 
the homeland. The third is to bring in the refugee issues. Let 
me start with a brief update. As all of us here know, the wars 
in both Syria and Iraq, which are deeply intertwined, continue 
to impact U.S. National security and continue to contribute to 
large refugee flows. At least by my assessment, in Syria, while 
the United States is providing limited support to some Syrian 
rebels through such programs as the Congressionally-approved 
Train and Equip Program and is conducting some limited air 
strikes against groups like Daesh and the Khorasan Group, the 
rest of 2015 is, indeed, concerning.
    Daesh or ISIS is likely to remain highly capable in Syria 
because of its access to resources and its ability to replace 
killed and captured leaders, as well as to continue to get 
pretty significant funding streams. In addition, the al-Qaeda-
affiliated group, Jabhat al-Nusra in Syria has also increased 
its control of territory. In fact, at least by my estimates, 
al-Nusra may be more capable now. By that, I mean more 
fighters, more funds, and more territory controlled than at any 
time since its creation in 2011, including in such strongholds 
as Idlib, Syria.
    That brings us to the connection to the homeland. The two 
groups in Syria, they also operate in Iraq, remain Daesh or 
ISIS and the Khorasan Group. They present high threats to the 
U.S. homeland. Both appear to be plotting attacks and certainly 
trying to inspire attacks in the U.S. homeland, as well as 
other places in the West. I think the issue that is worth 
noting is that we have more foreign fighters in this broader 
battleground that is Syria and Iraq than we have had in any 
jihadist battlefield in the modern era.
    This is a slightly different problem set than what I had to 
deal with in Afghanistan, what we had to deal with in Libya, 
and other places. Over 20,000 foreign fighters, about 17 
percent or so appear to be coming from the West. Roughly 200 
Americans are known to have attempted to travel to Syria to 
fight with Islamic militants. Obviously, of additional concern 
is the growing number of attacks we have seen across the West 
with links either directly or indirectly back to this region.
    Garland, Texas, Copenhagen, Denmark in February 2015, 
Paris, France in January 2015, Sydney, Australia in December 
2014, Ottawa, Canada in October 2014, Brussels, Belgium in May 
2014, just to name a few. The broader issue, as we look to the 
ties between Syria and the United States, is, first, more 
foreign fighters than we have seen on any modern battlefield, 
and, second, our intelligence picture is clearly much worse 
than at least my own experience in several battlefields 
overseas where we had a sustained American presence on the 
ground to collect information.
    So this brings me briefly back to refugees. I am happy to 
discuss this in more detail. Got roughly 4 million refugees 
based on the Syria problem set. Refugees has, as the Chairman 
noted, historically played and will continue to play a critical 
role in ensuring U.S. economic prosperity and cultural 
diversity. But the risks associated with refugees may be higher 
from Syria for several reasons. First, Syria and neighboring 
Iraq have the highest number of foreign fighters than any 
modern jihadist battlefield as I have already noted. There has 
been an exodus of some fighters to the West.
    Second, several groups in the region, like Daesh or ISIS, 
have planned to put operatives in the West, including in 
Europe, by having them seek political refugee status. This is 
not just in Syria by the way. We have seen this effort in 
Libya, among other places. Third, the U.S. intelligence 
community's understanding of extremists in Syria is worse. I do 
think it is worth considering a range of issues, improving data 
management of potentially concerning refugees, rescreening 
procedures, holding data collected at refugee camps, some DNA 
checks, and a few other issues.
    But let me just say in conclusion, that the United States 
does have a long-standing tradition of offering protection and 
freedom to refugees who live in fear of persecution. The 
Chairman mentioned a number of ones, including Albert Einstein. 
An integral part of that mission, however, in my view, needs to 
be ensuring that those refugees considered for entry into the 
United States, including from such jihadist battlefields as 
Syria, do not present a risk to the safety and security of the 
United States. I think what we are looking for is a balance. I 
am happy to talk more about those specifics in the Q and A 
period. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Jones follows:]
              Prepared Statement of Seth G. Jones \1\ \2\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to Federal, State, or local 
legislative committees; Government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a non-
profit research organization providing objective analysis and effective 
solutions that address the challenges facing the public and private 
sectors around the world. RAND's publications do not necessarily 
reflect the opinions of its research clients and sponsors.
    \2\ This testimony is available for free download at http://
www.rand.org/pubs/testimonies/CT433.html.
---------------------------------------------------------------------------
                             June 24, 2015
    Chairman King, Ranking Member Higgins, and distinguished Members of 
the Subcommittee on Counterterrorism and Intelligence, thank you for 
inviting me to testify at this important hearing, ``Admitting Syrian 
Refugees: The Intelligence Void and the Emerging Homeland Security 
Threat.'' I have divided my comments into four sections. The first 
provides an overview of the wars in Syria and neighboring Iraq, the 
second focuses on the terrorism threat to the United States, the third 
outlines the foreign-fighter problem from Syria and Iraq, and the 
fourth examines the implications for Syrian refugees.
                i. update on the wars in syria and iraq
    The wars in Syria and Iraq, which are deeply intertwined, continue 
to impact U.S. National security.
    In Syria, the United States is providing limited support to some 
Syrian rebels against Daesh--also known as the Islamic State of Iraq 
and the Levant (ISIL), Islamic State of Iraq and al-Sham (ISIS), or 
simply Islamic State (IS)--under the Congressionally-approved train-
and-equip program.\3\ However, U.S.-led airstrikes have been 
insufficient to seriously degrade Daesh in Syria. Over the rest of 
2015, Daesh is likely to remain highly capable because of its access to 
resources and its ability to replace killed and captured leaders. Daesh 
has recently strengthened control in such Syrian areas as Homs, Dayr az 
Zawr, and Ar Raqqah. In addition, the al-Qaeda-affiliated Jabhat al-
Nusrah has also increased its control of territory. In fact, Jabhat al-
Nusrah may be more capable now--with more fighters, funds, and 
territory--than at any time since its creation in 2011, and it retains 
a stronghold in northwestern Syrian areas such as Idlib. The recent 
capture of the town of Jisr al-Shughour in northern Idlib province was 
just the latest in a string of battlefield victories by rebel forces, 
which have made advances in both the north and the south of the 
country.\4\
---------------------------------------------------------------------------
    \3\ Daesh is an acronym from the Arabic name of the group, al-
Dawlah al-Islamiyah fil `Iraq wal-Sham.
    \4\ See, for example, Liz Sly, ``Assad's Hold on Power Looks 
Shakier Than Ever as Rebels Advance in Syria,'' Washington Post, April 
26, 2015.
---------------------------------------------------------------------------
    In neighboring Iraq, the United States is engaged in a 
counterinsurgency campaign against Daesh and its allies. After nearly 
10 months of bombing and U.S. military, intelligence, and diplomatic 
support to the Iraqi government and local actors, Daesh has lost ground 
in some areas--including most recently in Tikrit. But Daesh still 
retains substantial territory in the predominantly Sunni provinces of 
Anbar, Salaheddine, and Nineveh. In addition, Daesh remains well-
funded, allowing it to continue operations. Its funding comes from such 
activities as smuggling oil, selling stolen goods, kidnapping and 
extortion, seizing bank accounts, and smuggling antiquities.\5\ Daesh's 
capture of Ramadi in May 2015--despite an intensified U.S. bombing 
campaign--indicates that the organization retains significant 
capabilities in some areas.\6\
---------------------------------------------------------------------------
    \5\ See, for example, Patrick B. Johnston, Countering ISIL's 
Financing: Testimony Presented Before the House Financial Services 
Committee on November 13, 2014, Santa Monica, Calif.: RAND Corporation, 
CT-419, 2014. On antiquities, see Financial Action Task Force, 
Financing of the Terrorist Organization Islamic State in Iraq and the 
Levant (ISIL), Paris: Financial Action Task Force, February 2015.
    \6\ See, for example, Tim Arango, ``ISIS Captures Key Iraqi City 
Despite Strikes,'' New York Times, May 18, 2015; Hugh Naylor and 
Mustafa Salim, ``Key City in Iraq Falls to Militants,'' Washington 
Post, May 18, 2015.
---------------------------------------------------------------------------
             ii. the terrorist threat to the u.s. homeland
    In understanding the threat from Syria and Iraq, it is important to 
understand the broader context. Not all terrorist groups present a 
direct threat to the U.S. homeland. As Table 1 highlights, terrorist 
groups can be divided into three categories: Those that pose a high 
threat because they are involved in plotting or instigating attacks 
against the U.S. homeland; those that pose a medium threat because they 
are involved in plotting attacks against U.S. structures, such as 
embassies and U.S. citizens overseas (though not against the U.S. 
homeland); and those that pose a low threat because they are focused on 
targeting local regimes or other countries.\7\ Two terrorist groups 
operating in Syria--Daesh and the Khorasan Group--present high threats 
(Table 1).
---------------------------------------------------------------------------
    \7\ Seth G. Jones, A Persistent Threat: The Evolution of Al Qa'ida 
and Other Salafi Jihadist, Santa Monica, Calif.: RAND Corporation, RR-
637-OSD, 2014.

                        TABLE 1.--EXAMPLES OF TERRORISTS THAT THREATEN THE UNITED STATES
----------------------------------------------------------------------------------------------------------------
                                          High Threat               Medium Threat              Low Threat
----------------------------------------------------------------------------------------------------------------
Characteristics..................  Plotting or instigating    Plotting attacks against  Limited or no active
                                    attacks against the U.S.   U.S. targets overseas     plotting against U.S.
                                    homeland and U.S.          (e.g., U.S. embassies     homeland or U.S.
                                    targets overseas (e.g.,    and citizens).            targets overseas.
                                    U.S. embassies and
                                    citizens).
Examples.........................  <bullet> Al Qa'ida in the  <bullet> Al Shabaab.....  <bullet> East Turkestan
                                    Arabian Peninsula.        <bullet> Jabhat al-        Islamic Movement
                                   <bullet> Core al Qa'ida     Nusrah.                  <bullet> Suqor al-Sham
                                    (including the Khorasan   <bullet> Ansar al-Sharia
                                    Group).                    Libya groups.
                                   <bullet> Daesh...........  <bullet> Al Qa'ida in
                                   <bullet> Some inspired      the Islamic Maghreb.
                                    individuals and networks. <bullet> Boko Haram.....
----------------------------------------------------------------------------------------------------------------

    First, some groups pose a high threat. Since its expansion in Iraq 
and Syria, Daesh has become a growing threat to the United States. 
Rather than the complex attacks on 9/11, which involved years of 
training and meticulous planning, the most likely Daesh threat today 
comes from smaller, less-sophisticated attacks from inspired 
individuals who may have limited or no connections to the organization. 
Core al Qa'ida, based in Pakistan, also presents a threat to the U.S. 
homeland. But their leaders have had difficulty recruiting--or even 
inspiring--competent operatives in the West. That's why Ayman al-
Zawahiri sent a small group of operatives, referred to as the Khorasan 
Group, to Syria to plot attacks in Europe and the United States. 
Another is al Qa'ida in the Arabian Peninsula, which provided training 
to two of the operatives involved in the Charlie Hebdo attacks, Said 
and Cherif Kouachi. Several Yemen-based operatives--including leader 
Nasir al-Wuhayshi--continue to plot attacks against the United States. 
In addition, a small number of inspired individuals, such as the 
Tsarnaev brothers, who perpetrated the April 2013 Boston Marathon 
bombings, pose a threat. Still, terrorists have had difficulty striking 
the U.S. homeland because of robust counterterrorism steps by the 
Department of Homeland Security, Federal Bureau of Investigation, U.S. 
intelligence community, and other Federal and local agencies.
    Second, several extremist groups pose a medium-level threat because 
of their interest and capability to target U.S. citizens overseas, 
though they have little interest or ability to strike the U.S. 
homeland. Ansar al-Sharia Tunisia, for instance, has planned attacks 
against U.S. diplomats and infrastructure in Tunis, including the U.S. 
Embassy. Several groups with a presence in Libya--such as the various 
Ansar al-Sharia Libya branches and al Qa'ida in the Islamic Maghreb--
also pose a threat to U.S. embassies and citizens in North Africa; so 
does al-Shabaab in Somalia. Its objectives are largely parochial: To 
establish an extreme Islamic emirate in Somalia and the broader region. 
Al-Shabaab possesses a competent external operations capability to 
strike targets in East Africa. The September 2013 Westgate Mall attack 
in Nairobi, Kenya, was well-planned and well-executed, and involved 
sophisticated intelligence collection, surveillance, and reconnaissance 
of the target.
    Third, some extremist groups present a low-level threat to the 
United States. These groups do not possess the capability or intent to 
target the United States at home or overseas. They include such 
organizations as the East Turkestan Islamic Movement, which is 
primarily interested in Chinese targets.
           iii. foreign fighter challenge from syria and iraq
    Of particular concern for the United States is the growing number 
of extremists--both Sunni and Shi'a--that have traveled to (and from) 
Syria and Iraq to fight. The Syrian-Iraqi battlefield likely has the 
largest concentration of foreign extremists of any jihadist battlefield 
in the modern era. There have been over 20,000 foreign fighters who 
have traveled to Syria to fight. Approximately 3,400 fighters, or 17 
percent, appear to be coming from the West. Approximately 200 Americans 
are known to have attempted to travel to Syria to fight with Islamic 
militants.\8\ It is difficult to predict whether most of the foreign 
fighters will remain in Syria, Iraq, and other countries over the long 
run to fight or die on the battlefield; move to future war zones; or 
return to the United States and other Western countries. Even if some 
return, it is uncertain whether they will become involved in terrorist 
plots, focus on recruiting and fundraising, or become disillusioned 
with terrorism. Still, foreign fighters have historically been agents 
of instability. Volunteering for war is often the principal stepping 
stone for individual involvement in more extreme forms of militancy--
including in the United States.
---------------------------------------------------------------------------
    \8\ The data are from the National Counterterrorism Center. See 
Nicholas J. Rasmussen, Current Terrorist Threat to the United States: 
Hearing before the Senate Select Committee on Intelligence, February 
12, 2015.
---------------------------------------------------------------------------
    Indeed, there have been a growing number of attacks and plots 
across the West tied either formally or informally to Syria and Iraq. 
These include attacks in Garland, Texas, in May 2015; Copenhagen, 
Denmark, in February 2015; Paris, France, in January 2015; Sydney, 
Australia, in December 2014; Ottawa, Canada, in October 2014; and 
Brussels, Belgium, in May 2014. More broadly, there were over 20 
terrorist plots in the West either directed or provoked by extremist 
groups in Syria between October 2013 and January 2015.\9\ Daesh has 
been linked directly or indirectly to plots in such countries as 
France, Australia, Belgium, Libya, Tunisia, and the United States.\10\
---------------------------------------------------------------------------
    \9\ The data are from the UK's Security Service, or MI5. See Andrew 
Parker, Director General of the Security Service (MI5), ``Terrorism, 
Technology and Accountability,'' Address to the Royal United Services 
Institute (RUSI) at Thames House, January 8, 2015.
    \10\ These attacks have generally not involved returned foreign 
fighters, but rather individuals inspired directly or indirectly by 
Daesh.
---------------------------------------------------------------------------
    There is also significant concern among America's European allies 
about the threat from Syria and Iraq. For instance, more than 600 
British extremists have traveled to Syria and Iraq.\11\ Many have 
joined Daesh. ``We know that terrorists based in Syria harbor the same 
ambitions towards the United Kingdom--trying to direct attacks against 
our country, and exhorting extremists here to act independently,'' said 
MI5 director-general Andrew Parker in a January speech.\12\ Similar to 
the United States, the British face a complex threat, with more 
extremists than MI5 and the Metropolitan Police Service's Counter 
Terrorism Command, or SO15, can cover at any one time. Despite these 
challenges, MI5 and the police remain aggressive. In England and Wales, 
there has been a 35-percent increase in terrorist-related arrests since 
2011. And more than 140 individuals have been convicted for terrorism-
related offenses since 2010.\13\
---------------------------------------------------------------------------
    \11\ Parker, 2015.
    \12\ Parker, 2015.
    \13\ Parker, 2015.
---------------------------------------------------------------------------
    The British are not alone. Counterterrorism agencies across Europe 
and North America are under tremendous pressure to prevent terrorist 
attacks. French authorities report that nearly 1,400 French citizens 
have gone to Syria--or tried to go. French authorities arrested 91 
persons suspected of extremist activity in 2012--and another 143 
persons in 2013.\14\
---------------------------------------------------------------------------
    \14\ Brian Michael Jenkins and Jean-Francois Clair, ``Predicting 
the `Dangerousness' of Potential Terrorists,'' The Hill, March 26, 
2015; Jenkins and Clair, ``Different Countries, Different Ways of 
Countering Terrorism,'' The Hill, February 27, 2015.
---------------------------------------------------------------------------
          iv. implications for refugees and the u.s. homeland
    Based on these threats, it is important to examine potential risks 
from increased refugee flows from the region. In February 2015, the 
Department of State noted that it was ``likely to admit 1,000 to 2,000 
Syrian refugees for permanent resettlement in Fiscal Year 2015 and a 
somewhat higher number, though still in the low thousands, in Fiscal 
Year 2016.''\15\
---------------------------------------------------------------------------
    \15\ Jen Psaki, U.S. State Department Daily Press Briefing, 
Washington, DC, February 13, 2015.
---------------------------------------------------------------------------
    Refugees have historically played--and will continue to play--a 
critical role in ensuring U.S. economic prosperity and cultural 
diversity. In addition, the threat to the U.S. homeland from refugees 
has been relatively low. Almost none of the major terrorist plots since 
9/11 have involved refugees. Even in those cases where refugees were 
arrested on terrorism-related charges, years and even decades often 
transpired between their entry into the United States and their 
involvement in terrorism. In most instances, a would-be terrorist's 
refugee status had little or nothing to do with their radicalization 
and shift to terrorism.
    But risks associated with refugees from Syria may be higher today 
for several reasons. First, Syria and neighboring Iraq have the highest 
numbers of foreign fighters on any modern jihadist battlefield, and 
there has already been an exodus of some fighters to the West. Second, 
several groups in the region like Daesh have planned to put operatives 
in the West, particularly in Europe, by having them seek political 
refugee status. Daesh has also been active in some refugee camps in 
Syria. Third, the U.S. intelligence community's understanding of 
extremists in Syria is worse than in many other jihadist battlefields, 
such as Iraq and Afghanistan, because of more limited intelligence 
collection capabilities.
    Individual terrorists and terrorist groups have multiple options to 
attack the U.S. homeland. First, they can inspire and encourage locals 
to conduct attacks through magazines like Dabiq (published by Daesh) 
and Inspire (published by al Qa'ida in the Arabian Peninsula). Second, 
they can infiltrate members into the United States from overseas to 
conduct attacks or recruit operatives from U.S. communities. Third, 
they can target aircraft or vessels coming into the United States. In 
2010, for example, al Qa'ida in the Arabian Peninsula attempted to 
target cargo planes using plastic explosives hidden in printer 
cartridges.
    Refugees have occasionally been involved in the first two types of 
plots. Perhaps the best-known case involved Waad Ramadan and Alwan 
Mohanad Shareef Hammadi, who were arrested on Federal terrorism charges 
in 2009 in Bowling Green, Kentucky. They had been granted refugee 
status despite their insurgent activities in Iraq and their role in 
attacking U.S. troops. The Bowling Green arrests led to numerous 
changes in how the United States processed refugees and asylum-seekers. 
The process had been haphazard, partly because there were so many 
refugees and asylum-seekers--including from Iraq--being processed 
through the system. But there were also challenges because the data 
were not well organized across the U.S. Government.
    Overall, there are a small number of cases in which refugees have 
been arrested on terrorism-related charges in the United States. 
Examples include the following:
  <bullet> a Bosnian refugee in St. Louis (arrested in 2015)
  <bullet> a Somali refugee in Minneapolis (2015)
  <bullet> an Uzbek refugee in Boise, Idaho (2013)
  <bullet> two Chechen refugees in Boston (2013)
  <bullet> an Uzbek refugee in Aurora, Colorado (2012)
  <bullet> two Iraqi refugees in Bowling Green, Kentucky (2011)
  <bullet> a Somali refugee in Columbus, Ohio (2011)
  <bullet> a Somali refugee in St. Louis, Missouri (2010)
  <bullet> a Somali refugee in Portland, Oregon (2010)
  <bullet> an Afghan refugee in Aurora, Colorado (2009)
    There have been other cases in Canada. Ahmed Ressam, the millennium 
bomber who was convicted in 2001 of planning to bomb Los Angeles 
International Airport (LAX) on New Year's Eve 1999, had applied to 
Canada as a refugee. He was denied refugee status, but still managed to 
remain in Canada before attempting to attack the United States. Raed 
Jaser, who pled guilty in March 2015 to involvement in a terrorist plot 
that targeted a train route between Toronto and New York City, had 
applied for refugee status in Canada as a Palestinian. The Canadian 
government rejected his family's refugee claims. But since the family 
was stateless, the government allowed family members to stay in the 
country under Canada's ``deferred removal'' program. Finally, Sayfildin 
Tahir Sharif (also known as Faruq Khalil Muhammad `Isa), who was 
arrested in Canada in 2011 on a U.S. warrant, had moved to Canada as a 
refugee from Iraq.
    Because of these concerns, the United States should reassess its 
refugee program and make sure it safeguards National security. As 
already noted, a number of changes were implemented after the Bowling 
Green arrests. It is worth examining whether there needs to be enhanced 
screening and data collection for applicants, such as
  <bullet> additional background checks and other screening protocols 
        in place at the Department of Homeland Security and the Federal 
        Bureau of Investigation for screening refugee applicants--
        including Syrian applicants--through the U.S. Refugee 
        Admissions Program (USRAP).
  <bullet> improved data management of potentially concerning refugees. 
        Some of the mistakes in the past were not due to screening 
        errors, but rather caused by poor data management. Information 
        on terrorist links never made it to the right databases.
  <bullet> an enhanced U.S. intelligence community role in implementing 
        heightened measures to vet potential refuges from countries of 
        concern, including Syria. Some of this has already occurred 
        through such programs as the National Counterterrorism Center's 
        Kingfisher Expansion program.
  <bullet> enhanced re-screening procedures for refugees who have 
        entered the United States
  <bullet> better engagement with Visa Waiver Program countries out of 
        concern that refugees from Syria, Iraq, or other high-risk 
        countries could be resettled there and then enter the United 
        States with a lower level of scrutiny
  <bullet> additional authorities to hold data collected in refugee 
        camps.
    The United States has a long-standing tradition of offering 
protection and freedom to refugees who live in fear of persecution, 
some of whom are left to languish in deplorable conditions of temporary 
asylum. An integral part of that mission needs to be ensuring that 
those refugees considered for entry into the United States, including 
from such jihadist battlefields as Syria, do not present a risk to the 
safety and security of the United States.

    Mr. King. Thank you, Dr. Jones.
    Our next witness, Tom Fuentes, served in the Federal Bureau 
of Investigation for 25 years, retiring in 2008 as an assistant 
director. His distinguished career focused particularly on 
organized crime, cyber crime, and international law enforcement 
cooperation. For any of us who watch television, he is 
currently serving as a law enforcement analyst for CNN. I am 
glad you took a break from the jailbreak itself today to join 
with us. Seriously, I certainly always get a lot out of 
listening to your commentaries and your analysis on these 
issues. It is a privilege to have you testifying here today. I 
thank you. Mr. Fuentes, you are recognized.

  STATEMENT OF THOMAS FUENTES, ASSISTANT DIRECTOR (RETIRED), 
                FEDERAL BUREAU OF INVESTIGATION

    Mr. Fuentes. Thank you, Chairman King. Thank you, other 
Members of the committee, for inviting me here today. I did not 
submit a prepared statement in advance. I knew that my 
distinguished colleagues would very well illustrate the number 
of Syrian refugees, the scope of the issue of trying to 
determine how many will come, how they will come in, what 
processes will occur for them to try to vet them.
    My point with this would be that the last 5 years of my 
career in the FBI, I served as the head of the International 
Program, running the legal attache offices around the world. I 
was the Bureau's first on-scene commander in Iraq in 2003. I 
also served as a member of Interpol's executive committee and 
have worked closely with Interpol issues for more than 25 
years.
    The issue of international police cooperation is essential 
in everything we do. In all aspects of American business, 
students overseas, vacationers overseas, the issue of having 
countries that we work closely with, that we can rely on is 
essential for all aspects. But this particular issue, it comes 
down to do we have working partners in Syria. The fact is we do 
not.
    When I was in charge in Iraq in the summer of 2003 into the 
fall of 2003, even simple things there became difficult because 
the looters had taken the computers of Iraq's Department of 
Motor Vehicles and other Government computers, the actual 
computers that had the data on them, and the servers. So we had 
no way to vet immediately in the summer of 2003, but we built 
that up over time as we had the intelligence assets. I opened 
the FBI's formal legal attache office in October 2004. The 
United States has been able to work with Iraqis and get 
information.
    We have had some success, again, in Afghanistan and other 
countries that we were working with. But currently in Syria, we 
don't have that capability. We do not have an FBI office. Our 
human sources are minimal. Our, obviously, signals intelligence 
are also going to be minimal to understand what is actually 
occurring there. We don't have a Government we can partner 
with. That is the key thing. If any of these individuals would 
be in a database, you know, that is why they are refugees in 
many cases. If they are on the Government's radar in Syria, it 
could be for negative reasons which would cause them to want to 
come out and possibly seek a life here.
    So, for me, I would completely agree that the ideals of 
this country are that we take in immigrants and refugees from 
all over the world seeking the American Dream, seeking a better 
life, and especially the refugees that seek it for their 
children obviously. That becomes a problem as well when the 
children come, as we saw with the Somali refugees. As we saw in 
the Tsarnaev case, the Boston bombers, you see children who 4 
or 5 years later are old enough to become radicalized even with 
their parents being completely unaware.
    So my issue with this is how the vetting process would 
work, how it could possibly succeed, and recognizing that I 
know the FBI does not have the ability to really do an adequate 
vetting on this issue. Thank you.
    Mr. King. Thank you, Mr. Fuentes.
    Our next witness, is Dr. Daveed Gartenstein-Ross, a senior 
fellow at the Foundation for Defense of Democracies, an adjunct 
professor at Georgetown University's Security Studies Program, 
and a lecturer at the Catholic University of America.
    He is also the chief executive officer of Valens Global, a 
consulting firm focusing on the challenges posed by violent, 
non-state actors. Doctor, it is a privilege to have you here 
today. You are recognized. Thank you.

STATEMENT OF DAVEED GARTENSTEIN-ROSS, SENIOR FELLOW, FOUNDATION 
                   FOR DEFENSE OF DEMOCRACIES

    Mr. Gartenstein-Ross. Thank you, Chairman King, Ranking 
Member Vela, distinguished Members of the committee. In this 
testimony, I want to talk about how we have significant 
interests in alleviating the refugee situation in the region.
    The refugee situation caused by the Syria conflict is very 
grave. Both for humanitarian reasons and also for reasons of 
National interest, we should care about the situation deeply. 
This committee has also quite clearly raised issues about 
domestic radicalization. I think declining domestic capacity is 
something that should be considered, as well as the overall 
coherence of our migration policies.
    With respect to the region, as Dr. Jones said, there are 
about 4 million registered refugees outside of Syria right now. 
You also have a significant amount of, millions of Syrians who 
can be classified as internally displaced persons. You have 
significant upheaval and strain that this is causing in 
neighboring states. In Jordan, which is already a state which 
is strapped for water, which has a sky-high unemployment rate, 
in Lebanon, in Turkey, this has caused multiple challenges, 
both internal security challenges, domestic unrest, pitting 
native citizens against refugees. You have 155,000 registered 
refugees from Syria in North Africa and a significant movement 
of refugees into Europe from Libya's human trafficking 
networks. The collapse of the state in Libya has caused massive 
inflows through what is called the central Mediterranean route.
    Now, when this committee looks at this situation, there is 
both, as I said, humanitarian concerns and also strategic 
concerns related to the impact this has on the United States' 
partners in the region. When we look at, however, the risks 
associated with this, I think there is two specific 
radicalization concerns. One which was already raised is the 
concern that you might try to insert, a terrorist group might 
try to insert operatives into the United States in this way. 
This is not, I would say, the primary concern in my view. The 
reason why is because in order to get an operative into the 
United States, a group like Jabhat al-Nusra or the Islamic 
State would have to land them in a refugee camp and then hope 
they got picked up in the lottery process, in this case, being 
considered one of the neediest by the United Nations and then 
move to the United States.
    Now, this could happen. But there is much easier ways to 
move into Europe such as coming in through Libya, given the 
fact that a large number of Syrian refugees or those who can be 
classified as refugees are now moving into Europe through the 
Libyan route. However, despite the fact that I think the danger 
isn't particularly high, when you look at the security 
procedures, they are layered but they really look like the 
TSA's layered procedures, where the TSA checks a lot of boxes. 
But at the end of the day and the tests that have been done 
recently, it hasn't found the bomb. Other than the interview 
procedure, if that is done effectively, I am not convinced 
there is anything that really stands a chance of preventing a 
terrorist operative from getting in.
    Now, the second thing is radicalization concerns. If you 
look at the narrative that could be used for a Syrian refugee, 
it is going to depend upon whether they were displaced by the 
Islamic State, by al-Nusra, or by the Assad regime which is 
extraordinarily brutal. I think we would be foolish to ignore 
the fact that not the Islamic State, but Jabhat al-Nusra, al-
Qaeda's affiliate in Syria, has recently managed to position 
itself as at the forefront of opposing Assad and has managed to 
make itself popular both with other opposition groups and also 
with many Syrian people. For someone in the United States who 
has a special interest in Syria, sees the West as not acting, 
and looks at Nusra as cooperating with people, providing 
governance, and being at the forefront of opposing Assad, I 
think there is an elevated risk of radicalization that needs to 
be a part of this conversation.
    The final two things I want to point to, our declining 
domestic capacity. When we talk about violent non-state actors 
in the United States of all stripes, one thing that is of 
concern is that our resources are going to become fewer and 
fewer in the future. We have a National debt that is 
skyrocketing, that should soon surpass $20 trillion. Right now, 
it is at the $18 trillion mark. Looking at our own resources to 
handle problems that exist within the United States should be 
part of any conversation that involves outlays both on the 
security and humanitarian end.
    Finally, I want to say a word about the coherence of U.S. 
migration policies. I would say the United States has not met 
its basic obligations to people who helped us in Iraq and in 
Afghanistan, serving as translators or contractors for U.S. 
efforts. When we talk about taking in people from abroad, those 
who are needy, those who help the United States should be part 
of any conversation and should be at the forefront of those who 
we try to help. The United States deservedly has a bad 
reputation for not standing behind people who help us. When we 
deal with a situation where there are more conflicts at the 
sub-state level where we have to liaise with sub-state actors, 
making sure that we garner the right reputation for standing by 
our friends is an important part of what U.S. policy should 
promote.
    [The prepared statement of Mr. Gartenstein-Ross follows:]
             Prepared Statement of Daveed Gartenstein-Ross
                             June 24, 2015
    Chairman King, Ranking Member Higgins, and distinguished Members of 
the committee, on behalf of the Foundation for Defense of Democracies, 
it is an honor to appear before you to discuss the humanitarian and 
security issues posed by admitting Syrian refugees, and what the 
Government can do to address this challenge.
    The Syrian refugee crisis represents the tragic consequences of 
politics gone awry in the Middle East. Millions of Syrians have been 
displaced due to the fighting, which has also produced a near-complete 
fracturing of Syrian society. The refugee crisis must be considered 
with an emphasis on both humanitarian and security issues, as they are 
deeply linked. This testimony thus seeks to highlight the competing 
considerations that should inform our thinking and policies on this 
issue by focusing on both the deep humanitarian and geopolitical 
challenges associated with the Syrian refugee crisis, but also reasons 
why policymakers have legitimate concerns about the admission of large 
numbers of Syrian refugees into the United States. Even though rebel 
groups seem to have recently broken the stalemate with Bashar al-
Assad's regime, this doesn't mean that the Syrian civil war will 
imminently end, and even an end of the civil war doesn't mean an end to 
the refugee crisis: The proliferation of jihadist groups in the country 
is a demonstration of just how enduring the refugee crisis may be.
    The United States is now asking whether it should accept those 
Syrian refugees left most vulnerable by the conflict. While there may 
be both moral and pragmatic considerations counseling in favor of such 
a course of action, there are also challenges involved in doing so, and 
the risk exists that the United States could end up with an incoherent 
set of migrations policies, given its failure to admit the many Afghans 
and Iraqis who directly aided U.S. efforts during the major wars in 
both countries. Put simply, the United States has not met its 
obligation to locals in those two countries who assisted the U.S.'s 
military efforts, and whose lives are endangered as a result. Thus, any 
discussion of admitting Syrian refugees should recognize these 
obligations as a part of the discussion, one that should take priority.
    My testimony begins by outlining, country by country, the impacts 
of the Syrian refugee crisis, detailing where refugees have ended up in 
the Middle East, Europe, and North America. It examines the conditions 
of refugee camps, as well as humanitarian efforts of host nations and 
international organizations. The Jordanian response will be 
specifically highlighted, as Jordan has been particularly challenged by 
the sudden influx of refugees. The testimony concludes by describing 
potential problems related to resettling Syrian refugees in the United 
States, including security concerns.
           the humanitarian crisis related to syrian refugees
    The Syrian refugee crisis, now entering its fourth year, presents 
dire humanitarian concerns. The exodus of Syrians to neighboring states 
has created a myriad of challenges for host countries and aid 
organizations alike. Syrians displaced from the conflict now number 
almost 4 million in such neighboring countries such as Turkey, Lebanon, 
Jordan, Iraq, and Egypt, as well as European and North American states.
    Syrian refugees have been removed from the violence that continues 
to plague their home country, but they remain an at-risk population in 
the countries to which they have fled. Conditions in refugee camps 
vary, but they have created numerous humanitarian issues. Outside of 
the camps, displaced Syrians struggle to afford housing and find work, 
while host nations grapple with the implications of trying to integrate 
a refugee population that has become more likely to stay as the crisis 
continues.
    Scope of the crisis.--According to the U.N. High Commissioner for 
Refugees (UNHCR), the UN's refugee agency, nearly 4 million registered 
Syrian refugees live outside of Syria.\1\ There is also an unknown, 
though sizable, number of Syrian refugees who have not been registered, 
leaving them in legal limbo and without access to services provided by 
humanitarian agencies. Additionally, the Internal Displacement 
Monitoring Centre (IDMC) estimates that there are approximately 7.6 
million internally displaced persons (IDPs) in Syria, making it the 
country with the largest population of individuals displaced by 
conflict and violence in the world.\2\
---------------------------------------------------------------------------
    \1\ The UN High Commissioner for Refugees, ``Syria Regional Refugee 
Response,'' May 31, 2015, available at http://data.unhcr.org/
syrianrefugees/regional.php.
    \2\ Internal Displacement Monitoring Centre, ``Syria IDP Figures 
Analysis,'' December 2014, available at http://www.internal-
displacement.org/middle-east-and-north-africa/syria/; Global Overview 
2014: People Internally Displaced by Conflict and Violence (Geneva: 
Norwegian Refugee Council and Internal Displacement Monitoring Centre, 
May 2014), p. 11, available at http://www.internal-displacement.org/
assets/publications/2014/201405-global-overview-2014-en.pdf. Note: The 
distinction between IDPs and refugees is that refugees have fled their 
country of citizenship, whereas IDPs have left their home but remain in 
their country of citizenship.
---------------------------------------------------------------------------
    Countries bordering Syria have borne most of the burden of housing 
Syrian refugees. Turkey, with over 1.7 million registered refugees, 
holds more registered Syrian refugees than any other country. Second to 
Turkey is Lebanon, which houses nearly 1.2 million registered refugees, 
along with approximately 300,000 unregistered refugees.\3\ Jordan 
houses approximately 620,000 refugees, with the majority (80 percent) 
residing in urban areas such as the capital, Amman.\4\ Iraq houses 
around 250,000 Syrian refugees, in addition to 3 million-plus IDPs who 
have been displaced by the current conflict in Iraq.\5\
---------------------------------------------------------------------------
    \3\ Nour Samaha, `` `I Wasn't Afraid, but Now I Am': Syrians Fear 
Lebanon's Visa Rules,'' Al Jazeera, January 5, 2015.
    \4\ European University Institute and Migration Policy Centre, 
``Syrian Refugees: A Snapshot of the Crisis--in the Middle East and 
Europe,'' August 2014, available at http://syrianrefugees.eu/
?page_id=87.
    \5\ Internal Displacement Monitoring Centre, ``Iraq IDP Figures 
Analysis,'' January 2015, available at http://www.internal-
displacement.org/middle-east-and-north-africa/iraq/.
---------------------------------------------------------------------------
    Syrian refugees have also sought asylum or temporary residency in 
other countries in the region. According to UNHCR, there are 155,000 
registered Syrian refugees in North Africa; of those, approximately 
130,000 reside in Egypt, though conditions for Syrian refugees in that 
country have deteriorated since Mohamed Morsi's regime was overthrown 
in July 2013.\6\ A growing number of Syrian refugees based in Egypt 
have attempted the treacherous journey to Europe by sea. A significant 
number of Syrian refugees also live in Libya, though most of them are 
unregistered. Many Syrian refugees still residing in Libya do not 
intend to remain, and are planning to travel to Europe via Libya's 
well-established human smuggling networks.\7\
---------------------------------------------------------------------------
    \6\ Tom Rollins, ``Syrian Refugees in Egypt Determined to Get to 
Europe,'' Al-Monitor, July 24, 2014.
    \7\ ``What's Behind the Surge in Refugees Crossing the 
Mediterranean Sea,'' New York Times, May 21, 2015.
---------------------------------------------------------------------------
    Europe is home to a steadily-growing population of Syrian refugees. 
Nearly 150,000 Syrians have sought asylum in Europe since 2011 and 
European Union (E.U.) member states have pledged to resettle another 
33,000 Syrians in the coming months.\8\ Though E.U. law states that 
refugees must register in their country of entry, many Syrian refugees 
evade migration officials in southern and eastern European countries, 
and travel to northern European countries, where they then apply for 
asylum. Among European states, Germany and Sweden have received the 
most Syrian refugees, with both countries processing over 50,000 Syrian 
asylum applications from 2011-2014.\9\ Of the 33,000 refugees whom E.U. 
member states have vowed to resettle, the vast majority (30,000) will 
be resettled in Germany.\10\
---------------------------------------------------------------------------
    \8\ European University Institute and Migration Policy Centre, 
``Syrian Refugees: A Snapshot of the Crisis.
    \9\ Harriet Grant, ``UN Plan to Relocate Syrian Refugees in 
Northern Europe,'' Guardian (U.K.), March 11, 2015.
    \10\ United Nations High Commissioner for Refugees, ``Resettlement 
and Other Forms of Admission for Syrian Refugees.'' May 13, 2015, 
available at http://www.unhcr.org/52b2febafc5.pdf.
---------------------------------------------------------------------------
    The United States has admitted a small number of Syrian refugees. 
According to the State Department, 700 Syrian refugees have been 
accepted since the civil war began, and the State Department has 
revealed plans to accept as many as 2,000 additional refugees by the 
fall of 2015.\11\ Canada has pledged to accept 11,000 refugees in the 
near future.
---------------------------------------------------------------------------
    \11\ Somini Sengupta, ``U.N. Calls on Western Nations to Shelter 
Syrian Refugees,'' New York Times, April 17, 2015.
---------------------------------------------------------------------------
    Conditions for refugees inside and outside of refugee camps.--The 
massive forced migration out of Syria has necessitated a huge 
humanitarian response. Camps have been established in several countries 
to address the inflow of refugees. Yet with dwindling funds and 
resources, conditions are deteriorating.
    There are over 3.5 million Syrian refugees in Jordan, Iraq, Turkey, 
and Lebanon. Camps provide food, water, electricity, cash vouchers, 
basic medical services, education, and shelter. The camps, and the 
services they provide, are jointly managed by the host governments, 
UNHCR, and several participating NGOs. Some camps, notably the Kilis 
camp in Turkey, have relatively high standards of living.\12\ But the 
quality of services is not standardized across all camps; and even in a 
well-run camp like Kilis, the refugees want nothing more than to 
leave.\13\ Many camps have seen overcrowding and major budget 
shortfalls, and some camps reportedly lack electricity.\14\ 
Malnutrition, poverty, and disease are endemic.
---------------------------------------------------------------------------
    \12\ Mac McClelland, ``How to Build a Perfect Refugee Camp,'' New 
York Times, February 13, 2014.
    \13\ Ibid.
    \14\ Michael Kimmelman, ``Refugee Camp for Syrians in Jordan 
Evolves as a Do-It-Yourself City,'' New York Times, July 4, 2014 
(discussing the Azraq camp).
---------------------------------------------------------------------------
    But these camps represent the living situation for only 11 percent 
of refugees. Eighty-nine percent live in communities outside the camps, 
among the native population. Egypt and Lebanon, both of which have 
accepted a large number of refugees, do not even have official camps. 
The sudden influx of refugees has caused tensions with local 
populations, in part due to rising property costs, unemployment rates, 
and the overburdening of public institutions such as health care and 
education. Indeed, conditions outside of the camps are arguably worse 
for Syrian refugees than conditions within the camps. A recent report 
by UNHCR concerning the refugees in Jordan living outside of official 
camps (84% of the total for that country) found that nearly half were 
living in bad or uninhabitable conditions, two-thirds were living at or 
below the poverty line, and one-sixth lived in abject poverty.\15\ 
Refugees living outside of official camps lack many of the essential 
services that are at least partially provided inside the camps. This 
has caused even further substandard living conditions for Syrian 
refugees who resettle among the native population.
---------------------------------------------------------------------------
    \15\ United Nations High Commissioner for Refugees, Living in the 
Shadows: Jordan Home Visits Report 2014 (January 2015), available at 
http://www.unhcr.org/54b685079.pdf.
---------------------------------------------------------------------------
    Conditions for refugees, both inside and outside of official camps, 
are likely to worsen. Only 20 percent of the $4.5 billion funding 
request for UNHCR to sustain its 2015 operations assisting refugees has 
been fulfilled.\16\ Food aid has already been cut, as the Associated 
Press explains:
---------------------------------------------------------------------------
    \16\ Data taken from the United Nations High Commissioner for 
Refugees, ``Syria Regional Refugee Response,'' last updated May 31, 
2015, at http://data.unhcr.org/syrianrefugees/regional.php.

``The World Food Program reduced the number of Syrian refugees eligible 
for food vouchers from 1.9 million to 1.7 million in January to focus 
on the neediest. Since then, it has twice reduced benefits, most 
recently in May by a total of about 30 percent, and the neediest among 
more than 520,000 refugees living outside camps in Jordan now receive 
just $21 per person per month.''\17\
---------------------------------------------------------------------------
    \17\ ``Syrian Refugees Struggle Amid Aid Cuts, Lack Labor Rights,'' 
Associated Press, May 19, 2015.

    The situation can be expected to further deteriorate. Lacking money 
and resources, UNHCR and host governments will not be able to sustain 
their current efforts without more assistance from the international 
community.
    The case of Jordan.--The impact of Jordanian refugees on Jordan 
demonstrates that the current crisis is not just humanitarian, but also 
has real strategic implications for the region--and for the United 
States as well. Jordan's current population is approximately 8 million, 
of which about 628,160 are Syrian refugees.\18\ This 8.5 percent 
increase in population attributable to the inflow of refugees from 
Syria has strained the country in multiple ways.
---------------------------------------------------------------------------
    \18\ UNHCR, ``Syria Regional Refugee Response: Jordan,'' May 28, 
2015, at http://data.unhcr.org/syrianrefugees/country.php?id=107.
---------------------------------------------------------------------------
    Most Syrian refugees have settled in either Jordan's urban centers 
or refugee camps, with about 80% going to urban areas. A statistical 
analysis my research team performed on Syrian refugees in Jordan 
suggests that 51.3 percent are in the northern region, while only 3.5 
percent are in the south; and the distribution of Syrian refugees in 
Jordan is even more uneven on a governorate scale. The Mafraq 
governorate, which makes up most of Jordan's border with Syria, has 
absorbed most of the refugees in the north, and 25% of all Syrian 
refugees in Jordan overall. Refugees now make up 35% of Mafraq's 
population, with the two major destinations being the capital city of 
Mafraq and the Za'atari refugee camp.
    Syrian refugees in Jordanian cities, initially welcomed with a high 
degree of hospitality, are encountering rising tensions with the host 
community. A September 2012 report showed that 80% of Jordanians in the 
city of Mafraq would prefer that the refugees leave the city to live in 
camps.\19\ The rising population produced by the inflow of refugees has 
caused, among other things, a drastic rise in housing prices.\20\ Many 
Jordanians also fear that Syrian refugees are competing for their jobs.
---------------------------------------------------------------------------
    \19\ Elena Buryan, Analysis of Host Community-Refugee Tensions in 
Mafraq, Jordan, MercyCorps, October 2012.
    \20\ Ibid.
---------------------------------------------------------------------------
    Conditions in Jordanian refugee camps, especially the Za'atari 
camp--with 85,000 residents--are comparatively well-suited for a long-
term stay, and the camps have appeared more permanent over time. (This 
is not to say that the conditions can be considered good.) Za'atari has 
a significant black market economy, but also signs of normalcy that 
include barber shops, paved streets, electric poles, private toilets, 
private gardens, a pet store, a flower shop, and an ice cream parlor. 
In July 2014, 3,500 businesses could be found in Za'atari.\21\ Another 
indicator of the camps' potential permanence is rising levels of school 
attendance. One resident observed that most parents kept their children 
out of school initially, electing to wait and continue their education 
once they returned to Syria. Now, however, Za'atari residents send 
their children to school ``because they don't have any hope to go 
back.''\22\ Jordan's government has begun to acknowledge, at least 
implicitly, that Syrian refugees could be permanent in the country. 
UNHCR's external relations officer noted that the new Azraq refugee 
camp is designed to function like a city instead of a temporary 
camp.\23\
---------------------------------------------------------------------------
    \21\ Kimmelman, ``Refugee Camp for Syrians in Jordan Evolves as a 
Do-It-Yourself City.''
    \22\ Alice Speri, `` `We Don't Have Any Hope to Go Back': Syrian 
Refugees' Lives Turn Permanent in Zaatari Camp,'' Vice, May 9, 2014.
    \23\ Ibid.
---------------------------------------------------------------------------
    This refugee population has placed significant demands on Jordan's 
resources. The government of Jordan is currently able to satisfy the 
basic needs of the refugee community, but it may not be able to do so 
in the long run. Jordan is one of the most water-scarce countries in 
the world, and before refugees arrived the country's groundwater 
resources were on track to be depleted as early as 2060.\24\ The 
government's strategy to manage water use and increase sustainability 
did not account for the sudden addition of large numbers of Syrian 
refugees to the population. Water resources could now depleted years 
earlier than previously projected.
---------------------------------------------------------------------------
    \24\ ``Tapped Out: Water Scarcity and Refugee Pressures in 
Jordan,'' Mercy Corps, March 2014.
---------------------------------------------------------------------------
    The locations hardest hit by the refugee influx have seen average 
daily supply of water per person plummet to 30 liters, far below the 80 
liters per day necessary to satisfy basic needs. At this level, 
``sanitation standards decline, diseases rise, subsistence crops 
wither, and children go thirsty.''\25\ In Za'atari, refugees are 
allocated 35 liters of water per day, compared to the 70 to 145 liters 
per person per day provided in pre-conflict Syria.\26\
---------------------------------------------------------------------------
    \25\ Ibid.
    \26\ Alaa Milbes, ``Getting Water to Zaatari During Drought 
Season,'' Oxfam Policy and Practice Blog, August 19, 2014, at 
www.policy-practice.oxfam.org.uk/blog/2014/08/getting-water-to-zaatari-
during-drought-season.
---------------------------------------------------------------------------
    The entry of hundreds of thousands of Syrian refugees has caused 
food prices to rise sharply, especially in the north. For example, in 
Mafraq governorate, food prices have increased by 27 percent.\27\ A 
study has found that more than 60 percent of Syrian refugees in the al-
Ramtha, Beni Obaid, Irbid, and al-Badiya districts and the Jarash and 
Ajloun governorates do not have adequate access to food.\28\ 
Compounding this problem has been substantial cuts in food assistance 
to Syrian refugees, as the World Food Program reduced the number of 
Syrian refugees eligible for food aid in January 2015, and has further 
reduced benefits twice since then.\29\
---------------------------------------------------------------------------
    \27\ Food and Agricultural Organisation, ``Plan of Action: Jordan, 
2014-2018,'' January 2014, at www.fao.org/fileadmin/user_upload/rne/
docs/Jordan-Plan.pdf.
    \28\ Ibid.
    \29\ Karin Laub, ``Syrian Refugees Struggle Amid Aid Cuts, Lack of 
Labor Rights,'' Associated Press, May 19, 2015.
---------------------------------------------------------------------------
    Further, the electricity generation sector has been strained, which 
has been expensive for Jordan's government due to its subsidization of 
energy.\30\ Compounding the problem, Jordan imports 96 percent of its 
oil and gas, so it is exposed to fluctuations in energy prices on the 
supply side, and to population changes and increased consumption on the 
demand side.\31\ Pressure on Jordan's sanitation, education, and health 
systems is also increasing.\32\ Many schools are running two shifts at 
the expense of quality to accommodate Syrian refugee children, who are 
perceived to be at a lower educational level than Jordanian children 
due to curriculum differences and their interruption in education.
---------------------------------------------------------------------------
    \30\ Khalid Al Wazani, The Socio-Economic Implications of Syrian 
Refugees on Jordan: A Cost-Benefit Framework (Amman: Issnaad 
Consulting, 2014), available at www.kas.de/wf/doc/kas_37808-1522-2-
30.pdf?140522145513.
    \31\ U.S. Commercial Service, U.S. Department of Commerce, 
``Jordan: Renewable Energy Market,'' 2011, available at http://
export.gov/jordan/static/Jordan%20Renewable%- 
20Energy%20Market_Latest_eg_jo_034925.doc.
    \32\ Wazani, The Socio-Economic Implications of Syrian Refugees on 
Jordan.
---------------------------------------------------------------------------
    The influx of refugees also places significant strains on Jordan's 
economy. A January 2014 USAID study estimated that the direct and 
indirect costs of managing the Syrian refugee population amounted to 
2.4 percent of Jordan's GDP.\33\ The study found that growing 
government expenditures on refugees caused a decline in Jordan's 
ability to provide services and security to the general population.\34\ 
A separate study by the U.N. Development Programme found that the cost 
of hosting refugees in Jordan totaled $5.3 billion for 2013-2014, and 
most of these costs were covered by Jordan's government.\35\ And 
refugee-related economic costs extend to several other sectors of 
Jordan's economy. As previously noted, rental prices have increased as 
Syrian refugees drive up demand for rental units.\36\ The uptick in 
rental prices, along with other factors related to the refugee 
population, has contributed to a rise in inflation. Jordan's informal 
economy has also expanded as Syrian refugees look for jobs in informal 
industries.
---------------------------------------------------------------------------
    \33\ USAID, The Fiscal Impact of the Syrian Refugee Crisis on 
Jordan (January 2014), p. xi.
    \34\ Ibid., p. 38.
    \35\ United Nations Development Programme, Municipal Needs 
Assessment Report: Mitigating the Impact of the Syrian Refugee Crisis 
on Jordanian Vulnerable Host Communities (2014), p. 11.
    \36\ Yasser Abdih, Andrea Gamba, and Rafik Selma, Jordan: Selected 
Issues (Washington, DC: International Monetary Fund, April 2014), p. 5.
---------------------------------------------------------------------------
    All of this has fueled resentment among native Jordanians, who have 
consistently opposed opening their border to Syrian refugees. In a 
survey conducted in 2013, 71 percent of Jordanians opposed allowing 
more Syrian refugees into the country, while 58 percent said that the 
quality of service had declined in neighborhoods where Syrian refugees 
lived.\37\ Resentment and opposition to the refugee presence has only 
grown over time.
---------------------------------------------------------------------------
    \37\ Khaled Neimat, ``Majority of Jordanians Call for End to Syrian 
Refugee Influx,'' Jordan Times, April 15, 2013.
---------------------------------------------------------------------------
    Jordan has been forced to adapt its policies to deal with the 
growing number of Syrian refugees residing within its borders. Jordan 
initially welcomed Syrian refugees with what can be termed an ``open-
border policy'' at the start of the conflict in 2011. But as the Syria 
crisis intensified and became more protracted, Jordan has adjusted its 
control over the Jordan-Syria border, its management of refugee camps, 
and its legal framework concerning Syrian refugees. In September and 
October of 2014, for example, the border was closed to refugees, though 
the government's official stance remained that it was open to women, 
children, and injured refugees.\38\ In November, Human Rights Watch 
found that Syrian refugees attempting to cross into Jordan were being 
forcibly returned.\39\ Jordan again closed its border with Syria at the 
beginning of April 2015 due to the nearby outbreak of violence.\40\ 
Jordan also began restricting the movement of Syrian refugees to urban 
areas by impeding their ability to exit camps and move around the 
country in 2014.
---------------------------------------------------------------------------
    \38\ Rana Sweis, ``No Syrians Are Allowed Into Jordan, Agencies 
Say,'' New York Times, October 8, 2014.
    \39\ Human Rights Watch, ``Jordan: Vulnerable Refugees Forcibly 
Returned to Syria,'' November 24, 2014, at http://www.hrw.org/news/
2014/11/23/jordan-vulnerable-refugees-forcibly-returned-syria.
    \40\ Suleiman al-Khalidi, ``Jordan Shuts Border Crossing with Syria 
after Fighting,'' Reuters, April 1, 2015.
---------------------------------------------------------------------------
    For these reasons, the Syrian refugee crisis is not just a 
humanitarian concern, but a strategic concern for one of the key U.S. 
allies in the region.
  concerns related to accepting more syrian refugees into the united 
                                 states
    The biggest concern related to the United States admitting greater 
numbers of Syrian refugees is that it has failed to meet its basic 
obligations to foreign nationals who assisted U.S. efforts in Iraq and 
Afghanistan. Only a fraction of the Afghans who served U.S. military 
efforts, including as interpreters or contractors, have been admitted 
into the United States.\41\ Emerson Brooking and Janine Davidson note 
that ``when American servicemen rotate away,'' their ``translators 
remain--often becoming top-priority targets for reprisal attacks.''\42\
---------------------------------------------------------------------------
    \41\ Peter Cobus, ``Where the Grave Isn't Free: One Afghan 
Interpreter's Trials of U.S. Resettlement,'' Voice of America, April 
22, 2015.
    \42\ Emerson Brooking and Janine Davidson, ``Why is a Comedian the 
Only One Talking About the Plight of Afghan Interpreters?,'' Council on 
Foreign Relations, October 23, 2014, available at http://blogs.cfr.org/
davidson/2014/10/23/why-is-a-comedian-the-only-one-talking-about-the-
plight-of-afghan-interpreters/.
---------------------------------------------------------------------------
    The United States has a fundamental obligation to the men and women 
who worked with us in Iraq and Afghanistan, risking their lives and 
their families' lives. The situation for refugees from Syria is tragic, 
and is important for many reasons. But as we focus on the current 
crisis, let us not forget those to whom we owe a direct debt: There are 
both moral and also pragmatic reasons that we should put them at the 
top of our migration priorities. Further, one concern policymakers have 
about admitting Syrian refugees is whether some militants might be in 
their midst, and the Afghans and Iraqis who helped the United States 
should present a lower vetting burden.\43\
---------------------------------------------------------------------------
    \43\ Rusty Bradley, ``Heroes Left to Die,'' War on the Rocks, April 
23, 2014.
---------------------------------------------------------------------------
    Beyond the concern that the United States should ensure that 
Afghans and Iraqis who assisted U.S. efforts should not be left home to 
die, there are pragmatic concerns related to increasing our admission 
of Syrian refugees. The first one this testimony will discuss is 
terrorism and lawlessness concerns.
    Policies for screening refugees.--The United States has a set of 
layered policies in place for screening and admitting refugees. The 
system involves multiple checks across several agencies for medical and 
security concerns. Though this lessens the probability that malevolent 
actors will gain entrance into the United States, it fundamentally 
depends on the quality of U.S. intelligence about the Syrian refugee 
population. The biggest concern is a ``clean skin,'' an individual 
connected with a jihadist organization whose connections to the group 
are not known by American intelligence or law enforcement agencies. 
Indeed, U.S. officials have expressed concern that they might lack the 
assets to properly vet Syrian refugees for ties with militant groups 
prior to resettlement in the United States. As FBI assistant director 
Michael Steinbach said, ``You have to have information to vet. 
Databases don't [have] the information on those individuals, and that's 
the concern.''\44\
---------------------------------------------------------------------------
    \44\ Justin Fishel and Mike Levine, ``U.S. Officials Admit Concern 
over Syrian Refugee Effort,'' ABC News, February 12, 2015.
---------------------------------------------------------------------------
    The White House has allotted up to 70,000 refugees for permanent 
resettlement in fiscal year 2015, with 33,000 places reserved for 
refugees from the Middle East and South Asia.\45\ Syrian refugees are 
now seen as of special humanitarian concern to the United States, as 
both UNHCR and the United States have determined that ``tens of 
thousands of refugees living outside Syria are unlikely to ever be able 
to return.''\46\ The UN's high commissioner on refugees, Antonio 
Guterres, has called on industrialized countries to admit 130,000 
Syrian refugees in the next 2 years.\47\ Candidates for resettlement to 
the United States have been referred by UNHCR, and there are currently 
11,000 refugees who will be screened by U.S. officials as the next step 
in the process.\48\ The UN's refugee agency has said that those on the 
United States' list include ``the most vulnerable,'' such as single 
mothers and their children, victims of torture, and people with medical 
needs; and they also include Syrians who have worked with Americans, 
thus making them vulnerable to persecution.\49\
---------------------------------------------------------------------------
    \45\ Lauren Gambino, ``U.S. Steps up Syrian Refugee Admissions, But 
Why Are Some Still Excluded?,'' Guardian (U.K.), March 11, 2015.
    \46\ Anne Gearan, ``U.S. to Greatly Expand Resettlement for Syrian 
Refugees,'' Washington Post, September 30, 2014.
    \47\ Somini Sengupta, ``U.N. Calls on Western Nations to Shelter 
Syrian Refugees,'' New York Times, April 17, 2015.
    \48\ Ibid.
    \49\ See ibid. (discussing how those on the list are among the most 
vulnerable); Gearan, ``U.S. to Greatly Expand Resettlement'' 
(discussing the inclusion of Syrians who have worked with Americans).
---------------------------------------------------------------------------
    To be admissible, a candidate must pass a series of security and 
medical checks. A Department of State Resettlement Service Center (RSC) 
compiles personal data and background information for the security 
check process \50\ Some refugees go through an additional review, a 
Security Advisory Opinion, which is conducted by multiple law 
enforcement and intelligence agencies. While the methodology for 
additional review selection is not public, it is reasonable to assume 
that those who are flagged as potentially posing a more severe security 
threat are selected. Candidates for refugee status are also 
fingerprinted and interviewed in person by an officer from U.S. 
Citizenship and Immigration Services. A medical screening is completed, 
mostly to check for infectious diseases such as tuberculosis. Finally, 
a second interagency security check is completed before the refugee's 
departure to verify that all information remains correct, and that 
there are no relevant additions since the process began. Only after all 
these security and medical checks have been completed and analyzed can 
a refugee be admitted to the United States.
---------------------------------------------------------------------------
    \50\ The various steps of the refugee settlement process are 
outlined in U.S. Committee for Refugees and Immigrants, ``Security 
Screening of Refugees Admitted to the United States: A Detailed, 
Rigorous Process,'' n.d., available at www.rcusa.org/uploads/pdfs/
Refugee%20resettlement%20-%20step%20by%20step%20USCRI.pdf.
---------------------------------------------------------------------------
    The process of resettling to the United States as a refugee can 
take as few as 8 weeks, but on average it takes 18 to 24 months.\51\ 
However, the Department of State can expedite the process if there is a 
need, including particular physical dangers to the refugees.
---------------------------------------------------------------------------
    \51\ U.S. Department of State, ``U.S. Refugee Admissions Program,'' 
n.d., available at http://www.state.gov/j/prm/ra/admissions/.
---------------------------------------------------------------------------
    After refugees are approved for resettlement, they receive U.S. 
Government support for moving and transitioning to life in the United 
States. Though refugees are not given the option to pick where they 
will live initially, if they have relatives in the United States, they 
will likely be resettled with or near them.\52\ Otherwise, domestic 
resettlement agencies match the resource capabilities of around 190 
available communities to refugee needs in order to find the best match. 
Various State and Federal agencies, in conjunction with private 
organizations, are responsible for supporting refugees through the 
resettlement process. Refugees are met at the airport, taken to their 
new apartment, and given appliances, climate-appropriate clothing, 
food, and a one-time sum to help with initial expenses.\53\ Refugees 
can work immediately upon arrival in the United States. With proper 
documentation, trips outside the country permitted, but the refugees 
are not allowed to return to their country of persecution.\54\ One year 
after resettlement, refugees are required to apply for permanent 
residency, and after 5 years in the United States they can apply for 
citizenship.
---------------------------------------------------------------------------
    \52\ U.S. Department of State, ``The Reception and Placement 
Program,'' n.d., available at http://www.state.gov/j/prm/ra/
receptionplacement/index.htm.
    \53\ Ibid.
    \54\ U.S. Citizenship and Immigration Services, Department of 
Homeland Security, ``Refugees,'' April 11, 2013, available at http://
www.uscis.gov/humanitarian/refugees-asylum/refugees.
---------------------------------------------------------------------------
    Security concerns.--There has been a great deal of concern related 
to the current influx of refugees into Europe, which is degrees of 
magnitude larger than the United States' intake of refugees. 
Counterterrorism officials and even some refugees have warned that 
militant groups such as the Islamic State may seek to infiltrate 
Western Europe. One refugee in Germany warned about Italy's lax 
security measures: ``Any ISIS terrorist could have entered Italy and 
traveled further into Europe without any problem. ISIS members can take 
their guns and hand grenades with them, because the Italians never even 
checked any of the luggage.''\55\ Islamic State supporters have 
similarly alluded to their interest in using migrant outflows to gain 
entry into Europe.\56\ Though security concerns are lower for the 
United States, they should still be acknowledged.
---------------------------------------------------------------------------
    \55\ Harald Doornbos and Jenan Moussa, ``Italy Opens the Door to 
Disaster,'' Foreign Policy, April 13, 2015.
    \56\ See discussion in Charlie Winter, Libya: The Strategic Gateway 
for the Islamic State (London: Quilliam Foundation, 2015).
---------------------------------------------------------------------------
    There are several cases of refugees who have been involved in 
terrorist activities in the United States, though the risks should not 
be exaggerated. In May 2011, Waad Alwan and Mohanad Hammadi, two Iraqi 
refugees who had been resettled in Kentucky, were arrested in a sting 
operation and charged with attempting to provide arms to al-Qaeda in 
Iraq (the group that would later become the Islamic State). In talks 
with an undercover informant, the men also discussed the possibility of 
carrying out attacks domestically. Both Alwan and Hammadi are believed 
to have been involved in the Sunni insurgency in Iraq before coming to 
the United States: Hammadi even boasted to an undercover operative 
involved in the sting operation that he had planted IEDs in Iraq, while 
Alwan told the same operative that he had killed U.S. soldiers with a 
sniper rifle.\57\ Both men were admitted into the United States despite 
having been detained in Iraq due to suspicions about their involvement 
in insurgent activities.\58\
---------------------------------------------------------------------------
    \57\ Carrie Johnson, ``Terrorism Case Exposes Gaps In Refugee 
Screening,'' NPR, June 8, 2011.
    \58\ James Gordon Meek, Cindy Galli, and Brian Ross, ``Exclusive: 
U.S. May Have Let `Dozens' of Terrorists into Country As Refugees,'' 
ABC News, November 20, 2013.
---------------------------------------------------------------------------
    Tamerlan and Dzokhar Tsarnaev, the brothers responsible for the 
Boston Marathon bombing, arrived in the United States after their 
parents received refugee status in 2002.\59\ Tamerlan was 15 and 
Dzokhar was 8 at the time. They would subsequently radicalize and carry 
out their notorious attack.
---------------------------------------------------------------------------
    \59\ Peter Finn, Carol Leonnig, and Will Englund, ``Tamerlan 
Tsarnaev and Dzhokhar Tsarnaev Were Refugees from Brutal Chechen 
Conflict,'' Washington Post, April 19, 2013.
---------------------------------------------------------------------------
    Though distinct from the above instances due to the differences 
between the admission of refugees and asylum seekers, several jihadists 
involved in terrorist activities in the United States used asylum 
applications to remain in the country. Mir Aimal Kansi, who shot and 
killed 2 CIA employees and wounded 3 more in a January 1993 attack 
outside the agency's Langley headquarters, entered the United States 
illegally but applied for asylum, and was later allowed to stay in the 
country under a general immigration amnesty. Omar Abdel Rahman applied 
for political asylum to delay his deportation.\60\ Similarly, Ramzi 
Yousef, a key leader of the 1993 World Trade Center attack, ``asked for 
asylum and was released pending a hearing,'' and organized the attack 
while his asylum application was still pending.\61\
---------------------------------------------------------------------------
    \60\ Ted Conover, ``The United States of Asylum,'' New York Times, 
September 19, 1993.
    \61\ Daryl Fears, ``Bill Shifts Burden to Asylum-Seekers,'' 
Washington Post, May 1, 2005. Both Kansi and Yousef exploited an asylum 
process that, at the time, allowed any migrant who applied for asylum 
to receive a work permit while his claim was being investigated. 
Following Kansi's attack, the United States eliminated asylum seekers' 
ability to do so.
---------------------------------------------------------------------------
    Post-traumatic stress and other vulnerabilities.--Syrian refugees 
have been particularly susceptible to post-traumatic stress disorder 
(PTSD) because of their exposure to warfare, detachment from their 
previous life, and the privations of refugee life. They have continued 
to face hardships even after escaping a war zone. According to recent 
academic study on Syrian refugees, up to a third of Syrian refugees 
suffer from PTSD.\62\ PTSD can serve as a major impediment to 
successful integration into society, including manifesting in 
adjustment issues, language barriers, unemployment, and feelings of 
isolation and exclusion. PTSD sufferers often experience severe 
anxiety, panic attacks, insomnia, and erratic behavior. These symptoms 
can reveal themselves through difficulty in completing daily tasks, 
difficulty in school, substance abuse, and suicidal thoughts.\63\ 
Beyond PTSD, refugees' experiences with losing their home, family, 
friends, and livelihood can produce their own sets of problems.
---------------------------------------------------------------------------
    \62\ Gotay Alpak et al, ``Post-Traumatic Stress Disorder among 
Syrian Refugees in Turkey: A Cross-Sectional Study,'' International 
Journal of Psychiatry in Clinical Practice 19(1), March 2015, pp. 45-
50.
    \63\ Claudia Maria Vargas, ``War Trauma in Refugees: Red Flags and 
Clinical Principles,'' Visions: BC's Mental Health and Addictions 
Journal 3(3), Winter 2007.
---------------------------------------------------------------------------
                               conclusion
    Thus, the Syrian refugee crisis presents a large number of 
challenges, both humanitarian and strategic. As I said at the outset, 
the United States should link its refugee policies to fulfilling our 
obligations to Iraqis and Afghans who assisted U.S. efforts in those 
countries. Fulfilling U.S. obligations to Iraqis and Afghans who 
assisted U.S. war efforts should be seen as of paramount importance for 
both moral and pragmatic reasons.
    As this testimony has demonstrated, there are a variety of 
considerations related to Syrian refugees, and while security 
considerations should not be overstated, they do exist. (Some of the 
specifics of the refugee population being considered for refugee 
status, such as the fact that it represents the most vulnerable 
members, may mitigate concerns about terrorism and radicalization.) In 
addition to considering options related to refugee resettlement, U.S. 
policy makers should look to crafting comprehensive policies that also 
address such matters as targeted investments to alleviate the economic 
hardship on countries with large refugee populations, measures such as 
improved education to enhance the quality of life for Syrian refugees, 
and appropriate law enforcement training for countries hosting these 
populations.
    Thank you again for inviting me to testify today. I look forward to 
answering your questions.

    Mr. King. Thank you, Doctor.
    I would just add that to the extent that I am familiar with 
that issue, I fully agree with the last point you made, that we 
have not done enough for those who, especially in Afghanistan, 
the translators who are going to be left behind. They are at 
risk from the Taliban and others. I fully agree with that 
statement.
    You mentioned the importance of countries in the region, 
that we assist them with the, in fact, you mentioned, let me 
also ask the question to all three members of the panel, I have 
Jordan in mind in particular, how important it is that we do 
something to alleviate the pressure in Jordan. At the same 
time, we have these real risks to the United States.
    How much faith would any of the three of you have if we 
focused on the refugees in Jordan and relied for assistance on 
the Jordanian Government as far as vetting? It would seem to me 
we would have a better chance of vetting those refugees who 
have been in the camps in Jordan than we would just taking 
other refugees. I mean it is still a risk.
    But do you believe it would serve a purpose to focus on 
refugees that are right now in Jordan and have gone through a 
certain vetting process from the Jordanians?
    Mr. Gartenstein-Ross. The Jordanians, obviously, have a 
strong intelligence service. But the danger that we are talking 
about here is a refugee who could be classified as a clean 
skin. That is, if they don't have identifiable links to various 
terrorist organizations in the region. I think it is fair to 
assume, although I find that often when I assume things with 
the U.S. Government I really shouldn't, but it is fair to 
assume that there is already liaisons going on with Jordanian 
intelligence. So that if someone is flagged as being connected 
to Nusra or connected to ISIS, that we can get that information 
from the Jordanians.
    So I think that to the extent that there is identifiable 
information, our layered screening procedure will pick that up. 
The problem is that we have a layered screening procedure which 
is not well-designed to pick up the clean skin. I think 
liaising with Jordanian intelligence doesn't solve that 
problem.
    Mr. King. Mr. Fuentes and Dr. Jones.
    Mr. Fuentes. I think I would agree with that. We have had a 
very outstanding relationship with the Jordanians. I know I 
worked closely with them back during the time of the beginning 
of the Iraq war onward. Their intelligence service is 
excellent. They were inundated during the Iraq war time by 
hundreds of thousands of Iraqi refugees that poured into 
Jordan. Now they have equal numbers of Syrians, if not more, 
pouring in.
    But the problem for the Jordanians is a similar problem for 
us, do they have access to intelligence on the ground to be 
able to vet people through Syria? Do they have enough of a 
relationship with Assad and is that enough for us to be able to 
rely on? I think one of the countries in the region that we 
have had a lot of success, surprisingly, has been Yemen. Even 
though we have removed many of the assets that we had in Yemen, 
we have been able to still rely on the outstanding work of the 
Saudi Arabians in Yemen. Because many of the Yemeni-Iraqi in 
the Arabian Peninsula members are Saudis. They were able to 
infiltrate that group from the beginning. They provide 
tremendous intelligence to the United States, to the British, 
to other services based on that.
    A good example of that would be the printer cartridge bombs 
that were mailed to the United States, destined for the United 
States and for Western Europe. They had the exact shipping 
document numbers of each box. That enabled the British services 
at the airport there to actually open the box and find 80 grams 
of PETN. They have had success but that is because we have a 
service on the ground there that has already penetrated many of 
the groups in that country.
    We don't have a similar situation in Syria. That is the big 
problem right now. We don't have any other reliable partner of 
ours that is already in that country in a position to supply us 
the information where if they were to get it, they would. But 
we don't know if they can get it.
    Mr. King. Dr. Jones.
    Mr. Jones. Mr. Chairman, I think when you look at the 
refugee flows from Syria into the region, the highest numbers 
are in Turkey at about 1.7 million, in Lebanon, about 1.2 
million, in Jordan, about 629,000, and then in Iraq, about 
249,000 Syrian refugees. Out of those four countries, I would 
have notable concerns about the, what you are talking about in 
Turkey, Jordan, and Lebanon which brings me to Jordan.
    The way I would answer your question is among those four 
major countries, Jordan has, I think, by far the best 
intelligence agency and the best handle on this problem for a 
range of reasons, including concerns about the destabilization 
of Jordan. So I would look at this as almost a layered defense. 
We took a chunk of the refugees from Jordan, I think they have 
got better access to intelligence on refugees. We would also 
rely on U.S. allies, the Brits, others that have intelligence, 
as well as U.S.-owned, SIGINT, human, and other collection.
    But I would say the one concern I would have is if people 
became aware we were primarily taking Syrian refugees from 
Jordan, there would be an incentive by groups to get their 
terrorists through Jordan at that point. So, you know, we might 
be careful in how we publicly discuss that. Thank you.
    Mr. King. Actually my time has expired. But I would just 
say from listening to the testimony of each of you in answer to 
the question, there seems to be no real answer here. Because we 
do have some moral and diplomatic obligation to take some 
refugees in. But there is really not even close to a reasonable 
guarantee that we can vet any of them.
    Then you have the other issue raised by Dr. Gartenstein-
Ross about those who come here and become radicalized. So it 
would seem no matter how we proceed on this, it just may be a 
question of trying to minimize the risk. But there is still 
going to be significant risk there no matter what procedures we 
follow there, more so than I would say refugees from other 
countries we have had to deal with in the past so.
    With that, I recognize the Ranking Member of the 
subcommittee, Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman. I apologize for being 
late. I was at a meeting on the Iran nuclear negotiations.
    Mr. King. Were you meeting at the White House? Are you 
name-dropping?
    Mr. Higgins. No, I didn't say. I apologize. I will ask for 
unanimous consent to submit my opening statement for the 
record.
    Mr. King. Yes.
    [The statement of Ranking Member Higgins follows:]
               Statement of Ranking Member Brian Higgins
                             June 24, 2015
    Mr. Chairman, I would like to thank you for holding this hearing to 
examine the homeland security threat posed by terrorist groups trying 
to exploit the U.S. Refugee Admissions Program in order to plan or 
execute terrorist attacks in the United States and abroad. Today, I 
know we will hear from those who believe this threat is significantly 
amplified by the influx of Syrian refugees who are expected to be 
admitted into the United States over the next few years.
    While I acknowledge that there have been cases where terrorists, 
their associates, or foreign nationals have attempted to use the U.S. 
refugee process as a gateway to facilitate terrorist planning and 
attacks. However, I would offer that the attempted fraud associated 
U.S. Refugee program is no more or less than the attempted fraud that 
exists within other programs. To prevent exploitation, the refugee 
vetting process has been publicly characterized by a State Department 
official as ``intensive, `` ``slow,'' and ``rigorous.''
    Such a process exposes refugees to a great deal of scrutiny from 
U.S. law enforcement and intelligence agencies. Along with the systems 
and processes in place, the deliberateness of the process may 
inherently complicate the timing and ability of terrorists' plans. 
Throughout our history, the United States has been a haven for refugees 
fleeing persecution and those who would play on our fears should not 
derail that proud legacy.
    The United States should commit to resettling more of the refugees 
identified by the U.N. Refugee Agency as needing resettlement. Under 
our current resettlement plans, the United States is projected to 
rescue less than 1% of the refugees from Syria. This will not relieve 
the burden on the other resettlement countries that are hosting 
millions of refugees and spending billions of dollars on their care.
    But it is a first step. I encourage us to find a balance. We must 
continue to carefully screen refugee applicants for all National 
security and terrorism concerns. I would urge both my Democratic and 
Republican colleagues to ensure that sufficient resources and staff are 
in place and available to ensure that the security vetting process is 
thorough without hindering resettlement for legitimate refugees.
    Prohibiting Syrian refugees from resettlement or lowering the 
already minimal number of refugees in the United States now, when there 
is no real evidence that they are a terror threat, would be to actively 
and explicitly discriminate against them.
    Again, I thank Chairman King for his leadership and focusing our 
oversight on this hearing. However, I would warn us against overstating 
fears and creating a level of suspicion on an already vulnerable 
population.
    With that, I yield back.

    Mr. Higgins. Thank you. Thank you. Thank you. The situation 
in Syria is, obviously, you know, placing extraordinary 
pressures on Western countries and the United States to accept 
more refugees from Syria than ever before. So today, you know, 
how many refugees, Syrian refugees has the United States taken 
in to date? I would ask each one of the members on the panel.
    Mr. Gartenstein-Ross. The number has been relatively low. I 
don't have the exact figure on hand. I actually was reading 
about it this morning. But it is less than the tens of 
thousands range.
    Mr. Higgins. Okay.
    Mr. Fuentes. That is my understanding, a few thousand. But 
I don't have the exact numbers.
    Mr. Jones. A few thousand again. But I don't have the exact 
numbers on my fingertips.
    Mr. Higgins. The United Nations is saying that Syrian 
refugees, there is about 130,000, that over the next couple of 
years that will have to go to Western countries and the United 
States. But the concern, obviously, is the vetting process. 
That is challenged specifically by not having good intelligence 
on the ground.
    Dr. Jones, you had made reference to Jordan as having the 
best intelligence. Is that a viable option for the United 
States and other Western countries to have the vetting process 
done by Jordanians?
    Mr. Jones. I would say in order to protect and maximize 
U.S. National security, I would never rely on anyone else. I 
think what would make sense is a layered system. So the 
Jordanians have a pretty good vetting process. But I think the 
United States would have to rely on other allies and its own 
intelligence that it collects by itself.
    Mr. Higgins. How many U.S. agencies are involved in the 
vetting process?
    Mr. Jones. Well, I think if you are talking about agencies 
that collect information and pass it, there are, obviously, 
large numbers in the U.S. Department of Defense, in the U.S. 
Department of Defense intelligence agencies, in the CIA, in the 
Department of Homeland Security, and FBI, so a fair number.
    Mr. Higgins. So one would argue that the current system in 
place is perhaps a lengthy process but a thorough process?
    Mr. Jones. Lengthy process. A thorough process, assuming 
names get into the system.
    Mr. Higgins. What is the obstacle to names getting into the 
system?
    Mr. Jones. Well, I think adequate intelligence that, that 
an individual who is a terrorist or has been facilitating 
terrorism in a country like Syria has been identified by 
whether it is the United States or an ally and provided that 
information. Not just that, but we have the names, the nom de 
guerres, the spellings of that individual. I mean those are the 
challenges.
    Mr. Higgins. Okay. I yield back.
    Mr. King. The gentleman yields back. The gentleman from 
Pennsylvania, Mr. Barletta.
    Mr. Barletta. Thank you, Mr. Chairman. In a February 
hearing before the full House Homeland Security Committee, 
Assistant Director for the Counterterrorism Division at the FBI 
Michael Steinbach, commented on the intelligence community's 
lack of information on the ground in Syria to adequately vet 
those seeking admission to the United States. He stated that 
you have to have information to vet.
    So the concern in Syria is that we don't have systems in 
place on the ground to collect the information to vet. Mr. 
Jones and Mr. Fuentes, based on your experience, how would you 
assess the intelligence community's ability to obtain the 
information, necessary to properly screen Syrian refugee 
applicants for admission? Dr. Jones, do you want to start?
    Mr. Jones. Sure. I am not in Government anymore, so I don't 
have full access to what the United States has in place. But 
based on my broad understanding of what the United States had 
in place and has in place in other countries, including Iraq 
and Afghanistan where it has forces on the ground, that in 
Syria it has far fewer human collectors, far fewer signals 
intelligence and other capabilities. So, in that sense, it has 
much fewer, it has a much weaker ability to collect information 
that would be useful for the vetting process.
    Mr. Barletta. Mr. Fuentes.
    Mr. Fuentes. Mike Steinbach, the assistant director, worked 
for me 10 years ago as assistant legal attache and then later 
legal attache in Israel. He is a complete expert in what it 
takes to gather information from a reliable partner, share 
intelligence, have cooperation for the mutual security of both 
sides, the United States and for the country he is working in.
    So he knows exactly what the limitations are with Syria 
when you have no partner, there is no FBI office on the ground 
in Syria, we have no reliable partner there to gather 
information from them. When I say reliable, again, these 
refugees are going to be basically, they are refugees because 
they are enemies of the state. So we can't rely on that state 
to give us good information. Therefore, there is really no 
source of adequate information to put in any database.
    Mr. Barletta. Could ISIS and al-Qaeda operatives use our 
Nation's refugee system to carry out another 9/11-style attack? 
Is the United States putting itself at risk by accepting 
refugees from a country where the Government admittedly has 
insufficient intelligence? Both again.
    Mr. Jones. It is possible. It has not generally been their 
practice to get recruits into the United States through refugee 
programs. Again, the probability is not zero. But they have 
generally moved towards trying to inspire people already in the 
United States through social media and other ways. It is 
certainly possible though. They have talked about doing this in 
Syria, Libya, and several other places. But it has not been 
their main focus.
    Mr. Fuentes. In the aftermath of 9/11, the United States, 
the measures that were taken by U.S. law enforcement, 
intelligence, DOD, other agencies of the Government, were very 
extensive and very successful.
    The strategy of al-Qaeda at that time was basically, we 
referred to it in the Bureau as the big bang theory. They 
wanted the giant, prolific attack that generated world-wide 
publicity, which 9/11 almost could not be equalled or topped. 
Other groups that we have seen over the years, Hezbollah, 
Hamas, and others, believed in a different philosophy, death by 
a thousand cuts.
    So they were willing to do a bombing at a bus station in 
Israel or at a discotheque or in a cafeteria, kill four or five 
people at a time, maybe 50 people on a bus. But they were happy 
with that because they were also killing people that were 
engaged in everyday life which meant the whole population 
thought wait a minute, I take a bus, I go to school, I go to a 
cafeteria and eat, that could be me. So that generated terror 
at a different level. Over the years, because we have tracked 
international financing, the fact that Osama bin Laden would 
not have been able to exert command and control like he did on 
the 9/11 attack, personally meeting and vetting each of the 
hijackers, approving the individuals submitted to him by Khalid 
Sheikh Mohammed, you can't exercise that kind of control over 
an attack by courier or remote control where you are not in 
communication.
    Communication is essential to fight them. It is essential 
for them to carry out the attack. That is what was eliminated. 
So in this situation, you know, we have a situation where I 
don't think any Syrian refugee through that process, not any 
Syrian but a Syrian refugee through this process is going to be 
able to come in and mastermind a 9/11. Can they come in and do 
the street corner attack, run over people, stab people, you 
know, the death by a thousand cuts, in some cases literally, 
yes. But any terrorist and any radicalized American, we are 
seeing that every day with arrests by the FBI for people 
willing to do so that type of attack and the difficulty in 
stopping that.
    Mr. Barletta. Thank you. Thank you, Mr. Chairman.
    Mr. King. The gentleman yields back. The gentleman from 
Texas, Mr. Vela.
    Mr. Vela. Dr. Jones, obviously, the challenges of 
intelligence gathering in Syria are great. You started to talk 
about our relationship with Jordan and what they are doing on 
that end. I was wondering if you could elaborate on our 
relationship with Jordan. Also, after Jordan, what are the 
other countries that we should be looking at in terms of this 
kind of information sharing?
    Mr. Jones. So the U.S. relationship with Jordan has, 
obviously, been long-standing. There is, my understanding, a 
training going on with Jordan with rebels operating in Syria. 
So there is, there has been intelligence sharing between the 
United States and Jordan about individuals that are being 
trained to fight against the Assad regime or actually as the 
administration argues against the Islamic State in Syria.
    There have been concerns about weapons of mass destruction 
in Syria. So the Jordanians and the Americans have worked 
fairly closely on building the capability to go in and seize 
weapons of mass destruction if they were to be found, 
additional ones were to be found in Syria. So the relationship 
is fairly robust between the United States and Jordan. Where I 
would have concerns is some of the other countries in the 
region.
    Lebanon has got a fairly weak government, has historically 
had one. Hezbollah contains to play an important role in the 
political system in Lebanon. Probably not as good of a way to 
vet through Lebanon. Iraq, I have little faith that the Iraqi 
Government will be helpful in vetting. It has had a hard time 
controlling its own territory from ISIS.
    Then Turkey, Turkey is a NATO country. It certainly has an 
ability to monitor but Turkey has had a very difficult time 
managing the foreign fighter route through its own country. So 
Turkey's ability is circumspect to some degree. It is the 
predominant pipeline, if you need to get to Syria, to get 
there, you go through Turkey. So, again, I have concerns about 
Turkey's ability, though it is a NATO country, to keep a close 
eye on that.
    Mr. Vela. So from the Syrian refugee standpoint, are those 
four countries basically the first stop?
    Mr. Jones. Yes. They are the largest, as far as I am aware, 
they are the largest locations for Syrian refugees, yes.
    Mr. Vela. Now, is there anything else you think we need to 
do in terms of enhancing our relationship with Jordan?
    Mr. Jones. In addition to continuing to provide 
intelligence sharing between the United States and Jordan, 
nothing off the top of my head, no.
    I think the biggest challenge the United States is going to 
have is probably in Turkey, in Lebanon, and then in Iraq where 
its fidelity on the intelligence is just weaker.
    Mr. Vela. I guess this is a question for both you and Mr. 
Fuentes. From the standpoint of intelligence gathering overall 
in Syria, what else do you think we can do? I mean, is it a 
resource issue or----
    Mr. Fuentes. I think with Syria, it is not a resource 
issue. We have to have a stable government there. We have to 
have, I think we are not going be able to do this until we have 
the aftermath of whatever is happening now and some government 
is in control of that whole country and, hopefully, becomes a 
partner of the United States.
    Now, we could have what we have in Libya where you just 
have chaos and a failed state. That could occur. Or we could 
have dual states there of the Assad regime controlling maybe 
Damascus and part of the country, and ISIS or other groups, al-
Nusra, the other part of the country. So it is going to be 
difficult for us to have a working partner there at any level 
and a partner that we can trust their information if they give 
it to us.
    When you asked about Amman, I mean, about Jordan, the 
United States has had a tremendous relationship all through, 
you know, before the Iraq war, during the Iraq war, they served 
as basically a base for us to go from, as did Kuwait at that 
time. But also the Jordanians for us built a giant police 
academy just outside of Amman so that Iraqi police officers 
could be vetted by U.S. agencies, brought to that location by 
the thousands, and trained and then returned back to Iraq.
    You have noticed, we haven't had the issue in Iraq over the 
years of police officers and Iraqis killing Americans like we 
later faced in Afghanistan on several occasions. So that 
program was successful. Also when the process of, as I 
mentioned, I opened the FBI's office, the formal attache office 
in Baghdad in 2004. At that time, it was decided that that 
embassy was going to be either the largest or second-largest 
embassy in the U.S. system. The largest being Cairo, Egypt.
    So they were expecting about 1,000 people to be employed in 
the service of that embassy. Jordan volunteered that the United 
States could have a second partial embassy of Baghdad based in 
Amman where it would be safer and, therefore, not need 1,000 
people in Baghdad to service the Iraqi-Baghdad legal--I mean 
Embassy at the time. So they have been tremendously helpful. 
Their partnership has been strong. The cross-training that has 
gone on between their personnel and American personnel has been 
outstanding.
    So I don't know that we could increase, you know, it is 
hard to be a stronger partner with them. We have certain 
partners like that in the world that you wonder how you could 
be closer, whether it is Israel or whether it is the British or 
the Australians. But, you know, the situation is what are they 
able to get from Syria, can they do any better than we can? I 
think at the moment, it is questionable that they can.
    Mr. Vela. Thank you. I yield back.
    Mr. King. The gentleman yields back.
    I would just add I don't know of any closer ally we have in 
the world than Jordan, I mean, at every level of cooperation of 
Jordan is first class, of Jordanians is first class.
    I received five statements for the record from non-profit 
groups that work with refugees. I ask unanimous consent that 
they be included in the record. Without objection.
    [The information follows:]
                           Statement of HIAS
                             June 24, 2015
    Throughout our history, America has been defined by our generosity 
toward those who seek a safe haven from oppression. An asylum system 
that is fair, effective, and humane honors both our country's history 
and reflects the deeply-held American and Jewish tradition of offering 
a chance at a new beginning to those who seek safety and freedom. Once 
given that opportunity, refugees and asylees become active and 
productive members of American communities.
    In the aftermath of World War II, when the price for keeping doors 
closed to refugees was made starkly clear, the international community 
adopted the 1951 United Nations Convention relating to the Status of 
Refugees, which to this day defines who is a refugee and what legal 
protection a refugee is entitled to receive and is the basis for the 
U.S. refugee and asylum law.
    The Immigration and Nationality Act provides a way for those 
fleeing persecution to seek refuge while preventing those who pose a 
threat or danger to the United States from entering. The law 
established mechanisms to screen for potential threats. The procedure 
for screening out applicants for refugee status that may pose a threat 
to the United States has only become more rigorous since September 11. 
Today the refugee program has the most thorough security screenings of 
any form of immigration relief.
    Refugee applicants undergo multiple security screenings at almost 
every step of the process of resettlement to the United States. The 
Department of State and the Department of Homeland Security share in 
the responsibility of screening refugee applicants. An applicant's 
biographic information and biometric information are vetted against 
multiple law enforcement and intelligence databases including the State 
Department's Consular Lookout and Support System (CLASS), which 
includes the Government's terrorist watch list information, the Federal 
Bureau of Investigation (FBI) Integrated Automated Fingerprint 
Identification System (IAFIS), and DHS's Automated Biometric 
Identification System (IDENT). This is in addition to the in-person 
interview conducted by DHS staff to ascertain the validity of the claim 
for refugee status.
    HIAS believes that National security and assistance to refugees 
from Syria are not incompatible. Syrian refugees are subject to the 
rigorous security screening processes in place. Many of those seeking 
asylum are victims of terrorism and are trying to find safety from 
extremism. The U.S. refugee program can offer them that safety and 
still protect the United States from possible threats.
    There are some Syrian refugees who will never be able to return 
home or live safely a country of first asylum. The United States can 
help the countries of first asylum that have shouldered the 
responsibility for so many Syrians fleeing the crisis by providing 
assistance and resettling some of the most vulnerable refugees who are 
unable to live in these countries in safety. By doing so, the United 
States will proudly honor its tradition of providing safe haven for 
refugees and ensure that the most vulnerable can rebuild their 
shattered lives free of fear.
                                 ______
                                 
 Statement of Syrian Community Network (Chicago, IL), Syrian American 
Medical Society, Karam Foundation, Syria Relief and Development, Syrian 
Expatriates Organization, Watan USA, Rahma Relief Foundation, Hope for 
                                 Syria
                             June 24, 2015
    Dear Chairman Peter King, Ranking Member Brian Higgins, and Members 
of the Subcommittee: We write to you as a group of non-political Syrian 
American-led humanitarian organizations that provide multi-sector 
relief inside of Syria, to refugees and host countries in the region, 
and to Syrian refugees in the United States. Our efforts together help 
millions of Syrians, both those who remain in Syria and those displaced 
as refugees. Our programs cover the full range of humanitarian sectors, 
including community services, education, food and non-food items, 
health, protection, water/sanitation/hygiene, and women's empowerment. 
In addition to emergency relief, our organizations have established 
development projects that promote sustainable living and lay the 
groundwork for voluntary refugee return, such as building schools, 
facilitating jobs and skills training, and helping to establish 
bakeries and flour mills. Together, we support over 100 health 
facilities and almost 1,000 medical staff inside of Syria who operate 
under the principle of medical neutrality and risk their lives to save 
others. Our organizations prioritize education, psychosocial support, 
and community healing. We've been fortunate to have leading 
Congressional officials visit our field programs to see their impact on 
Syrian refugees, and we've had the opportunity to advocate for 
humanitarian support for Syria and Syrian refugees at the highest 
levels of U.S. Government, from President Obama to Secretary Jeh 
Johnson to leaders of the House and Senate.
    We further represent a constituency of Syrian Americans, 
humanitarian allies, and local volunteers throughout the United States, 
from Texas to New York. As the crisis has become increasingly 
protracted, our organizations have begun to work with local resettled 
Syrian refugees in the United States, coordinating with volunteers, 
refugee agencies, and civic and religious organizations to ensure that 
Syrian refugees are welcomed and assisted in their transition. Our 
built-in networks of Syrian American and partner communities have been 
invaluable in these transitions.
    We are humbled to submit this statement to the House Homeland 
Security Subcommittee on Counterterrorism and Intelligence on admitting 
Syrian refugees. As you know, the United Nations estimates that about 4 
million people have fled Syria and 7.6 million others are internally 
displaced. Over 230,000 Syrians have been killed since 2011. As Mr. 
Antonio Guterres, the United Nations High Commissioner for Refugees, 
said recently: ``The Syrian war unleashed the worst humanitarian crisis 
of our time.''
    The enormous flow of refugees has created a strain on host 
countries in the region, which are forced to deal with extreme economic 
pressures, overcrowded hospitals, shortages of basic public services, 
and growing resentment among host communities. The regional dynamics of 
Lebanon, Jordan, and Turkey, which have taken on the majority of the 
refugee burden, have been altered over the last few years. The conflict 
in Syria has led to a regional crisis, and the sheer numbers of 
refugees and lack of support for host communities threaten the 
stability of these countries. However, as Anne Richard, the Assistant 
Secretary for the Bureau of Population, Refugees, and Migration at the 
Department of State, said: `` . . . These very real burdens must pale 
in comparison to the daily struggles of Syrians themselves. Imagine 
losing practically everything--your loved ones, your home, your 
profession, and your dignity.''
    We commend the United States Government for taking a leadership 
role to stand for these vulnerable refugees and to offer them a glimpse 
of hope. Throughout history, the United States has always taken a 
leadership role in assisting vulnerable refugees. The United States has 
accepted the majority of all UNHCR referrals from around the world. In 
2013, United States reached its goal of resettling nearly 70,000 
refugees from nearly 70 countries. Now, the United States has put forth 
invaluable efforts to resettle vulnerable Syrian refugees.
    We have worked closely with our partners at the U.S. Refugee 
Admissions Program, coordinated by the Bureau of Population, Refugees, 
and Migration at the Department of State and the Department of Homeland 
Security, along the way. We commend their meticulous and exemplary 
work. All Syrian refugee profiles being actively considered for 
resettlement are reviewed thoroughly by the U.S. Refugee Admissions 
Program with support and leadership from the White House and security 
vetting agencies. These Syrians go through extensive security 
background checks. The majority of Syrian refugees being considered for 
resettlement are among the most vulnerable populations of women and 
children seeking to flee the effects of conflict. With assistance from 
the International Organization for Migration, they are provided with 
medical exams and logistics for transportation before coming to the 
United States.
    Once Syrian refugees arrive, our groups work alongside a network of 
resettlement agencies, non-profits, churches and mosques, civic 
organizations, and local volunteers to welcome them. These U.S. groups 
work in 180 communities across the country to ensure refugees have 
access to work, education, opportunities to improve their English, and 
what they and their families need to be comfortable and have a happy 
and healthy future.
    The Syrian Community Network is a prime example of a volunteer-led 
organization working closely with resettled Syrian families to ease 
their transition, focusing particularly on the Chicago area. The Syrian 
Community Network works with 10 families that have been resettled 
through various agencies. One family in particular stands out as an 
upcoming success story. Resettled in Chicago in January 2015, Mayada is 
a single mother with 6 children ranging between the ages of 4 and 19. 
Her two oldest children, Zeyd and Zeynab, hold steady jobs and help to 
pay rent, all while they attend ESL classes at the local community 
college. The four younger children--Wedad, Zakaria, Shahed, and 
Shaima--have been performing remarkably in school, exceeding 
expectations. They all dream of graduating college and becoming 
doctors, teachers, computer engineers, and so much more. The youngest 
daughter, Shaima, decided that she wants to be a photojournalist after 
a Chicago journalist interviewed her. Just recently, Wedad, who will be 
in ninth grade in the fall, was accepted into the ``GirlForward'' 
summer program designed for bright adolescent refugee girls in the city 
of Chicago. Syrians are known to have an entrepreneurial spirit and, 
given the opportunity, Syrian refugees will become the next American 
success story.
    We strongly urge the Homeland Security Subcommittee on 
Counterterrorism and Intelligence to support their counterparts at the 
Department of State and Department of Homeland Security as they work to 
further increase resettlement numbers for vulnerable Syrian refugees in 
2015 and beyond. The families and individuals being considered for 
resettlement face dire protection challenges and often need specialized 
care. Among those being considered are victims of torture, women at 
risk, persons with disabilities, LGBTQ persons facing risk, women-
headed households, and those facing acute security threats. To prohibit 
Syrian refugees from the option of U.S. resettlement because of the 
presence of ISIL and other extremist groups in Syria, and not based on 
thorough U.S.-led security checks and humanitarian needs assessments, 
discounts the commendable work of the Department of Homeland Security 
and Department of State and amounts to blatant discrimination based on 
nationality. The Homeland Security Subcommittee on Counterterrorism and 
Intelligence should work to further ensure sufficient staffing and 
capacity for security vetting agencies to increase their ability to 
conduct thorough and quick security checks.
    Our organizations function as implementing partners for many of the 
major INGOs and U.N. agencies in Syria and coordinate with the U.S. 
agencies taking the lead refugee resettlement here at home. Our 
talented staff and volunteers have been the backbone of crisis relief 
for Syria and have a comprehensive understanding of the changing 
situation on the ground. From seeing the trends of displacement in 
Syria and the region first-hand, we think that it is essential for the 
United States to take a leading role in Syrian refugee resettlement for 
the protection of Syria's vulnerable refugees, for the stability and 
security of the region, and for the relevance of the United States as a 
humanitarian and global leader. We strongly encourage the Homeland 
Security Subcommittee on Counterterrorism and Intelligence to work with 
relevant U.S. departments and the administration to ensure that 
vulnerable Syrian refugees continue to have the hope of resettlement 
and a brighter future.
                                 ______
                                 
      Statement of Mirna Barq, President, Syrian American Council
                              May 21, 2015
    Chairman King, Ranking Member Higgins, and Members of the 
subcommittee: The Syrian American Council is the largest and oldest 
Syrian American community organization in the United States. Founded in 
2005 in Burr Ridge, Illinois, SAC is a multi-ethnic, multi-
confessional, non-partisan organization that incorporates all segments 
of the Syrian American community. Our activities include community 
organizing, youth empowerment, media outreach, advocacy, and support 
for pro-democracy activists in Syria. SAC has 23 local chapters Nation-
wide.
    SAC is honored to submit this statement for the record to the 
Subcommittee on Counterterrorism and Intelligence. Significant 
communities of Syrian Americans exist in many areas of the United 
States, including New York, Texas, Iowa, Florida, Ohio, Pennsylvania, 
Michigan, and Ohio. Their income levels are above the median for 
American citizens and many of them provide jobs and livelihoods for 
other Americans in their locale. Older community members have found in 
America a democratic haven from political persecution, while our youth 
have grown up here and consider American culture their own.
    As a young Christian growing up in Damascus, I personally was 
blessed to have experienced the wonders and beauty of the holiday 
season in my beloved Syria. The memories of festivities throughout the 
Damascus old city, the carolers, the beautifully lit Christmas trees, 
the nativity mangers, and the churches filled with celebrants will stay 
with me forever. Each year, I take the time to describe my experience 
to friends and family in my hometown of Orlando, Florida so they will 
understand the inherent tolerance and diversity of the Syrian people. 
That inherent tolerance and diversity is now under attack.
    The Syrian American community shares your dismay at the rise of the 
so-called Islamic State of Iraq and Syria (ISIS) and at the urgent 
home-grown terror threat that has resulted from this rise. We are also 
painfully aware that ISIS has exploited the crisis in Syria to turn our 
ancestral homeland into a locus for recruitment. ISIS has severely 
impeded our ability to get help to ordinary Syrians in need. At times, 
Syrian Americans have been forced into hasty exits from their 
humanitarian work inside Syria after finding out that ISIS had marked 
them for death.
    We consider ISIS our enemies, and as such, we are keen to help 
Congress and the U.S. Government as they work to stop these extremists. 
SAC has already partnered with the Office for Civil Rights and Civil 
Liberties at the Department of Homeland Security to organize community 
briefings for Syrian Americans. In addition, staff members of the SAC 
have briefed senior White House officials on ISIS activities inside 
Syria. We encourage a robust Congressional debate on how ISIS can be 
stopped both at home and abroad.
    Along these lines, it is important to note that Syrian immigrants 
to the United States are in no way the leading demographic of foreign 
fighters joining ISIS. Out of over 150 U.S. nationals who have 
successfully joined or attempted to join ISIS in Syria and Iraq, we 
know of only one potential case involving a Syrian American (who is not 
charged with having joined ISIS). By contrast, many U.S.-born citizens 
have joined ISIS, including citizens with no ancestry from majority-
Muslim countries. Clearly, barring vulnerable Syrian refugees from 
entering America will not address this vast majority of cases.
    America is a Nation of immigrants and always has been. Each year, 
the United States admits some 70,000 refugees as new citizens, and the 
Syrian refugee crisis is far and away the worst refugee crisis in the 
world today. United Nations High Commissioner for Refugees Antonio 
Guterres has referred to the Syrian refugee crisis as ``the worst 
humanitarian disaster since the end of the Cold War.'' Furthermore, the 
majority of Syrian refugees up for resettlement are not fighting-age 
males, but innocent women and children seeking to flee the vicious 
conflict. They live in horrible conditions, and every winter, multiple 
child refugees die for lack of heating and winter clothing. Many 
refugees even have family members or close friends and associates 
within the Syrian American community who are ready to care for them.
    To bar Syrian refugees from resettlement in the United States now, 
when their need is so great and when there is no real evidence that 
they are a terror threat, would be to actively and explicitly 
discriminate against them--against us--simply for being Syrian. We as 
Syrian Americans encourage our Congress Members to support the fight 
against ISIS and defend our country against home-grown terrorism 
without contributing to the demonization of the entire Syrian 
community.
    Founded in 2005 in Burr Ridge, Illinois, the Syrian American 
Council is the largest Syrian-American community organization in the 
United States. It serves to amplify the voice of the Syrian-American 
Community. SAC is a multi-ethnic, multi-confessional, non-partisan 
organization that includes members from all segments of Syrian society, 
and has over 23 chapters Nation-wide. It is an organization devoted to 
community organizing, awareness-raising, youth empowerment, media 
outreach, advocacy, and support for Syrians seeking to build a free and 
democratic Syria.
                                 ______
                                 
         Statement of Lutheran Immigration and Refugee Service
                             June 24, 2015
    Lutheran Immigration and Refugee Service (LIRS) appreciates the 
opportunity to submit its views on the United States Refugee Admissions 
Program as it pertains to Syrian refugees. As the national organization 
founded by Lutherans to serve uprooted people, LIRS is committed to 
helping those who have been forced to flee their homes find protection. 
Following God's call in scripture to uphold justice for the sojourner, 
LIRS serves as a leader in calling for the protection of vulnerable 
migrants and refugees, including children and families from Syria.
    For over 75 years, LIRS has worked to welcome over 400,000 refugees 
to the United States on behalf of the Evangelical Lutheran Church in 
America, the Lutheran Church--Missouri Synod and the Latvian 
Evangelical Lutheran Church in America. In fiscal year 2014, LIRS and 
its Refugee Resettlement affiliates welcomed over 11,000 refugees to 
their new communities and empowered them to build new lives.
    Resettlement in a third country is considered a durable solution 
and a last resort for only a small fraction of the world's most 
vulnerable refugees. LIRS is proud to be one of nine agencies that 
partners with the Federal Government, particularly the Department of 
State's Bureau of Population, Refugees, and Migration (PRM) and the 
Department of Health and Human Services' Office of Refugee Resettlement 
(ORR) to be a part of this solution. LIRS is dismayed that despite the 
United Nations High Commissioner for Refugees (UNHCR) registering over 
4 million Syrian refugees, half of whom are children, only a precious 
few Syrian refugees have been resettled in the United States.
    The United States Refugee Admissions Program (USRAP) located within 
the Department of Homeland Security (DHS), U.S. Citizenship and 
Immigration Services (USCIS) agency continually achieves its dual 
mission to offer resettlement opportunities to eligible refugees while 
safeguarding the integrity of the program and the United States 
National security. To protect U.S. National security, DHS provides 
advanced training to its refugee adjudicators on security protocols, 
fraud detention, and fraud prevention. In addition, each refugee 
considered for resettlement in the United States goes through a multi-
layered screening process before coming to the United States. These 
processes include multiple biographic and biometric checks by U.S. 
security vetting agencies which are routinely updated, in-person 
interviews with trained adjudication's officers and ``pre-departure'' 
checks. No case is finally approved until results from all security 
checks have been received and analyzed.
    To add unnecessary security screening mechanisms to this already 
robust process would needlessly harm individuals who need protection by 
delaying their resettlement. ``Sadly, the Syrian refugee population 
includes severely vulnerable individuals: Women and girls at risk, 
survivors of torture and violence, and persons with serious medical 
needs or disabilities,'' said Linda Hartke, LIRS president and CEO. 
``LIRS and our national network stand ready to do what it takes to 
welcome into U.S. communities the most vulnerable Syrian refugees who 
cannot return home or integrate in the countries currently hosting 
them.''
    The U.S. Refugee Admissions Program offers refugees safe haven and 
a chance at a new life, while also bringing tangible benefits to the 
communities that welcome them. Having endured incredible hardship and 
unimaginable horrors in their home countries, refugees often spend 
years exiled in host countries once they flee, awaiting the opportunity 
to rebuild their lives. In the case of Syrian refugees, host countries 
in the region are increasingly strained and unable to offer benefits or 
stability. Once they are resettled in a third country, refugees 
routinely become engaged and productive community members, contributing 
economically, socially, and spiritually to our communities. The support 
of welcoming communities, congregations, volunteers, employers, 
schools, foster families, and others makes resettlement a successful 
public-private partnership. The Federal Government, particularly PRM 
and ORR, and State governments play a vital role.
    The conflict in Syria only continues to worsen. As mentioned, UNHCR 
has registered over 4 million refugees, half of whom are children, who 
have been forced to flee to neighboring countries. It is LIRS's 
position that the United States should commit to resettling a higher 
number of vulnerable Syrian refugees. However, to achieve this goal, 
more focus and resources must be committed to the admission process as 
well as the resettlement and integration of newly-arriving refugees.
       increased funding needs and necessary resettlement reforms
    Resources available to refugee families and adults through ORR have 
remained stagnant for many years. To ensure that Syrian refugees 
resettled in the United States would receive the help they need to 
locate housing, receive medical attention and employment assistance, 
among other services, and to promote self-sufficiency and long-term 
integration this funding must be increased. While private support plays 
an important role in the reception and integration of refugees, Federal 
resources are critical to ensure refugees receive essential services. 
Refugee populations arriving to the United States have changed 
significantly since the formal establishment of the resettlement 
program in the Refugee Act of 1980. Today's refugee population is much 
more diverse and vulnerable than it was more than three decades ago. 
However, services lack flexibility to be responsive to the diverse 
strengths and needs of refugees arriving today. Furthermore, ORR's 
mandate has expanded over the years from serving resettled refugees to 
include asylees, Iraqi and Afghan Special Immigrant Visa recipients, 
Cuban and Haitian entrants, survivors of human trafficking and torture 
and unaccompanied children. Because funding has not kept up with these 
changes in ORR's mandate and diversifying client needs, ORR has 
strained to provide sufficient support and services to all of the 
populations under its care.
          reforms to terrorism-related inadmissibility grounds
    Under immigration law, an individual cannot be admitted to the 
United States if they have provided material support, including 
insignificant material support, to an undesignated terrorist 
organization; a member of such an organization; or to an individual the 
individual knows, or reasonably should know, has committed or plans to 
commit a terrorist activity. In 2001, Congress enacted legislation that 
significantly broadened the definition of ``terrorist activity.''
    As a result, refugees, including many vulnerable Syrian refugees, 
who pose no threat to National security face denial of protection and 
resettlement in the United States due to unintended consequences of the 
overly-broad application of the ``material support to terrorist 
organizations'' bar (and related bars) to admission. Indeed, current 
law threatens to exclude any Syrians who fought with any armed 
opposition group in Syria (regardless of whether or not the individual 
applicant was involved in any violations of international humanitarian 
law or other crimes), anyone who provided ``material support'' to any 
opposition force or opposition fighter, anyone who solicited funds or 
members for such a force, and even anyone whose spouse or parent is 
found to have done these things.
    These bars are duplicative and carry severe consequences. As 
mentioned previously, refugees are required to pass intense security 
screenings and background checks as part of the admission process. 
People who commit war crimes, crimes against humanity, or who persecute 
others are inadmissible to the United States under other provisions of 
our immigration laws. However, overly broad ``terrorism'' bars prevent 
the ability of the United States to provide welcome to bona fide 
refugees seeking safety.
                          lirs recommendations
    LIRS's expertise, experience, and compassion--drawn from decades of 
welcoming vulnerable newcomers--inspires our advocacy. To address 
current resettlement needs facing refugees, including millions of 
Syrian refugees, and improve welcome for refugees in the United States, 
LIRS makes the following recommendations to Congress:
  <bullet> Ensure robust funding of the Department of State's Bureau of 
        Population, Refugees, and Migration and the Department of 
        Health and Human Services' Office of Refugee Resettlement to 
        better protect and assist refugees overseas and those resettled 
        to the United States.
  <bullet> Enact pending legislation to strengthen refugee protections 
        and resettlement, including the bi-partisan Protecting 
        Religious Minorities Persecuted by ISIS Act of 2015 (H.R. 
        1568).
  <bullet> Amend problematic anti-terrorism provisions that define 
        ``material support'' too broadly.
  <bullet> Increase the Presidential Determination from 70,000 refugees 
        in fiscal year 2015 to 100,000 refugees in fiscal year 2016 to 
        allow resettlement of Syrian refugees in addition to on-going 
        resettlement of other refugees from around the world.
    If you have any questions about this statement, please contact 
Brittney Nystrom, LIRS Director for Advocacy.
                                 ______
                                 
                 Statement of CWS, Church World Service
                             June 24, 2015
    Church World Service, a 69-year-old humanitarian organization 
representing 37 Christian denominations, works to assist refugees 
through protection internationally and by providing resettlement 
services to help refugees adjust to their new lives and integrate in 
the United States.
    The U.S. Refugee Admissions Program is a life-saving, public-
private partnership that helps rescue refugees who have no other means 
of finding safety. To be considered a refugee, individuals must prove 
that they have fled persecution due to their nationality, ethnicity, 
religion, political opinion, or membership in a particular social 
group. Refugees face three options: Return to their home country, 
integrate in the country to which they first fled, or be resettled to a 
third country. For the millions who are unable to return home due to 
significant threats to their safety and are rejected by the country to 
which they first fled, resettlement is the last resort. While less than 
1 percent of the world's estimated 15 million refugees are resettled to 
a third country, resettlement saves lives and also helps encourage 
other countries to provide durable solutions for refugees within their 
borders, including local integration. The United States has a long 
history of providing protection to persons fleeing persecution, and 
U.S. communities, schools, congregations, and employers welcome 
refugees and help them integrate in their new homes. In turn, refugees 
contribute to their new communities with their innovative skills, 
dedicated work, and inspiring perseverance.
    Currently, Syria is experiencing the worst humanitarian crisis the 
world has seen in 20 years, with approximately 4 million refugees who 
have fled the country and 7.6 million internally displaced. Roughly 
three-quarters of those displaced are women and children. Lebanon, 
Jordan, Turkey, Iraq, and Egypt currently host more than 3.9 million 
registered Syrian refugees and thousands more who are not registered. 
Specifically, religious minorities living in ISIS-held territories, 
including Christians, Yezidids, Shabaks, Turkoman Shiites, Coptic 
Christians, Druze, Mandeans and Assyrians have fled in the thousands. 
While this crisis is complex and requires a variety of solutions, 
refugee resettlement plays a strategic role in alleviating pressure on 
host countries in the region, galvanizing international awareness of 
the human costs of the crisis, and providing durable solutions and 
opportunities for a new life for vulnerable populations fleeing 
persecution. Many European countries have welcomed Syrians through 
resettlement and humanitarian admissions schemes, including Germany 
pledging to accept 30,000; Sweden to resettle 2,700 and with more than 
9,000 asylum applications pending; and Norway, France, Austria, 
Finland, and other countries working to provide protection and 
resettlement to Syrian refugees. While traditionally a world leader in 
refugee resettlement, the United States has resettled only a small 
numbers of Syrian refugees.
    The refugee resettlement program is the most difficult way to enter 
the United States, routinely taking individuals referred to the program 
longer than 1,000 days to be processed. Security measures are intrinsic 
to the integrity of the refugee program, and over the years, the U.S. 
Government has continuously fine-tuned the system to maximize domestic 
security. All refugees undergo thorough and rigorous security 
screenings prior to arriving to the United States, including but not 
limited to multiple biographic and identity investigations; FBI 
biometric checks of applicants' fingerprints and photographs; in-depth, 
in-person interviews by well-trained Department of Homeland Security 
officers; medical screenings; and other checks by U.S. domestic and 
international intelligence agencies, including additional biographical 
screening by the National Counterterrorism Center (NCTC) since August 
2011. www.rcusa.org/uploads/pdfs/How_Refugees_Get_to_the_US_Chart.pdf. 
In addition, mandatory supervisory review of all decisions; random case 
assignment; inter-agency National security teams; trained document 
experts; forensic testing of documents; and interpreter monitoring are 
important checks in place to maintain the security of the refugee 
resettlement program.
    CWS urges the United States to welcome refugees and asylum seekers 
impacted by the Syrian conflict and ensure access to resettlement by 
the most vulnerable Syrian refugees, with special attention to women 
and girls, children in adversity, and other highly vulnerable 
populations. CWS stands committed to working with both chambers of 
Congress and the administration to resettle Syrian refugees as part of 
our foreign policy interests and humanitarian responsibilities. We urge 
all Members of Congress to support these efforts to provide safety to 
vulnerable refugees from Syria and beyond.

    Mr. King. Now, the gentleman from New York, Mr. Katko.
    Mr. Katko. Thank you. I want to echo the sentiments of the 
Chairman that there is a moral imperative to try and do 
something to help these refugees. There is no question about 
that. I had the good fortune with the task force that I am part 
of to go to the Middle East and see first-hand the gravity of 
the situation in Baghdad and flying over Jordan and seeing the 
camps and in Turkey, as well as in many other places.
    So, yeah, we do have a moral imperative; but we also have a 
duty as leaders of this great Nation to protect our citizens. 
That therein lies the rub, I guess, right? So, I want to 
analyze this a little bit in a bifurcated manner and first just 
ask you each a simple question. Do any of you think it is a 
good idea to allow refugees into this country when you can't 
properly vet them? Forget about the moral side of it. Just 
answer me; from a security standpoint, is it a good idea? Does 
anybody think it is? No. I think we are unanimous in that. Am I 
right?
    Okay. So then the question then becomes, what do you do? 
Can we help them somehow in other ways, other than bringing 
them here? Is that something that anyone has contemplated, and 
if they have, how can we do that? I would like to hear from 
each of you on that.
    Mr. Gartenstein-Ross. I agree with that, and I think that 
looking at this through a National interest perspective is 
important. At the end of the day as American policymakers, 
there is a strong duty, obviously, to the American public.
    Actually addressing the situation over there, is I think, 
very important and arguably may get more bang for the buck 
because if you look at the percentage, you know, right now we 
are looking at taking in 70,000 refugees this year of which 
about 33,000 would be from the region, so the maximum is about 
33- to 35,000 Syrian refugees. That is a drop in the bucket.
    If you look at the situation on the ground in the camps, 
trying to improve the situation in the camps, providing job 
opportunities, educational opportunities, often people who are 
in camps are set back significantly in their education, 
particularly because as the populations initially went there, 
they thought that they would be there temporarily; and so 
children ended up missing a year or more equivalent of school 
in addition to the situation that is there.
    The one thing I would point to that I would be cautious of 
is that, particularly in Jordan, since most of the refugees 
there are not in camps, there is a great deal of tension 
between the native Jordanian population and the refugees; and 
so any sort of jobs program that is aimed specifically at 
refugees may generate more resentment. But I think thinking 
about that angle and what you can for the region, is both from 
a security perspective and probably from a domestic resource 
perspective, has advantages and may actually be from kind of 
the overall humanitarian perspective, the best use of our 
money.
    Mr. Katko. Thank you very much. Mr. Fuentes.
    Mr. Fuentes. Yes, I would agree with that. If you provide 
the type of resources that maybe make these camps more livable, 
make them, you know, better in terms of humanitarian cause, not 
just care and feeding and shelter, but also educational 
programs and other opportunities, the length of time that you 
would be providing those services would also be a deterrent to 
terrorists because they wouldn't want to take the time to have 
to have somebody go through a 1- or 2-year program to go 
through that process.
    Then they would have to worry that they would lose them, 
that they would become pro-United States or pro-West as opposed 
to whatever cause they thought they were sending them to. So I 
think that if we did more for the refugees before they got here 
and it took a longer time to do that, it might in itself be a 
deterrent.
    Mr. Katko. Dr. Jones.
    Mr. Jones. I think a range of those steps would be helpful. 
I would have two additional comments. One is I think a long-
term strategy for Syria right now is lacking, and I think in 
addition to refugee issues, finding ways to wind down the war 
through political, military, and other steps would be useful. I 
don't believe we have a long-term strategy at the moment, and I 
would urge whatever administration comes next as well as this 
one to make this a priority based on the threats that we are 
talking about.
    The other issue I would just note is I think we have got 
these vetting challenges in a range of countries we are now 
seeing extremists; Libya, Afghanistan, Pakistan, Yemen, 
Somalia, Iraq. The Islamic State has expanded into a range of 
these countries. So, again, I would also note that this vetting 
issue is problematic in a number of them, and even in the Yemen 
case our presence there has declined significantly over the 
last several years, including our intelligence picture. So we 
have got this problem in several places.
    Mr. Katko. Yeah. I am glad to hear you all pretty much 
agree with what I believe to be the issue is; we can't have 
people coming into this country where we can't properly vet 
them. Especially in this day and age where ISIS is trying 
different ways to probe and get in here as well.
    So, I think maybe taking a fresher look at what we can do 
while they are still over there is something which might 
fulfill the moral imperative we have to help them, and that is 
something we should probably think about a little bit more and 
talk about a little more fully going forward. So thank you, 
gentleman.
    Mr. King. The gentleman from Massachusetts, Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman. Getting back to our 
own intelligence in Syria, we talked about what we can gain 
from other countries. Now since we have had limited, you know, 
people on the ground there, how much has it improved our own 
internal intelligence on Syria? Any idea? It had to have gotten 
better because it was at a very low ebb.
    Mr. Jones. My assessment is if you look at the U.S. 
intelligence and military's targeting in Syria, including of 
Khorasan targets, it is obviously good enough to take out some 
very serious al-Qaeda, al-Nusrah, and some Islamic State 
targets, so I think the capability is better today than it was 
a year or 2 ago. So better. That doesn't mean good.
    Mr. Keating. We have had witnesses at other hearings in 
other committees testify that Assad's position is much more 
precarious than it was.
    How would you speculate things might change in terms of the 
refugee situation if he is gone, if he is out of power 
personally, you know, whether or not he is replaced by someone 
more or less aligned to his own administration or someone else? 
I know it is speculative, but how significant would that be, 
given the fact that I do believe that he is in a much more 
precarious situation.
    Mr. Fuentes. I think it would depend on who he is replaced 
with. If we have ISIS take over the whole country or Khorasan 
Group or other al-Qaeda affiliates, we have gone from bad to 
worse, but actually it is bad already. So I think that the 
intelligence assets that we do have on the ground in Syria 
right now to help target who we want to get in terms of members 
of adversarial groups is one thing.
    To have them be in a position to vet refugees, they are not 
going to be able to do that. They are in a covert, very 
dangerous, precarious situation. So I think that is a different 
ability for our intelligence services.
    Mr. Keating. The same people testified, just for the 
record, you know, that it would be highly unlikely, you know, 
that it would be one of those groups that would be able to take 
over in that kind of change.
    Dr. Jones had a comment with the Visa Waiver Program, how 
we should be more engaged in that. Clearly there is a concern 
that if people resettle and they are there and there is a lower 
level of security, how do you propose we better engage with 
that program, the Visa Waiver Program?
    Mr. Jones. I think part of this is continuing to work with 
European allies. I think some of that has improved over the 
last year or two in getting names on lists. The Germans have 
been more cooperative in providing names of individuals they 
have been concerned about. So I think part of the issue on Visa 
Waiver is continuing to get more granular information on names 
of individuals of concern for terrorist activity. Different 
spellings of names, noms de guerre. That is the direction I 
would encourage on Visa Waiver.
    Mr. Keating. The other question I have, of the small number 
of refugees we have in the United States now, how is that 
broken down with women and children? Any figures in that 
respect? Any estimates in that respect at all? None.
    Well, the other issue really is one in the larger sense of 
our allies. You have referenced, you know, one country, 
Germany, that is vetting this as well. I was a part of the same 
group that went through not only through the Mideast, but 
through Europe, looking at any pathways for foreign fighters. 
But I think the same thing can be said, too, in terms of the 
concern with the refugees in Turkey, 1.9 million, they told us, 
refugees are there. They have 40 million people coming in and 
out of the Istanbul Airport, largely with people leaving there, 
having no information provided to us.
    When you mentioned how there is a disparity among some of 
our allied countries in Europe, can you name some of the things 
that should be done, and particularly what countries could use 
more engagement on our part?
    Mr. Fuentes. I think in terms of international cooperation, 
you know, we do have outstanding relationships with our 
European allies and almost all of the Middle East countries 
where we have a partner relationship. Some places we don't have 
it.
    I mentioned that I served as a member of the Executive 
Committee of Interpol, and many of these countries are also, 
including Iran, members of Interpol. So there is some dialogue 
even in those channels that we often can use in spite of the 
public stance that a country might be our enemy, you know, back 
channel, we do on occasion get some help from a number of these 
countries if they see the same threat to them that we see to 
us. That becomes the issue here.
    In terms of Germany, there is a large Turkish population in 
Germany, so they have had some degree of success in getting 
cooperation, having sources of information, from the Turkish 
population; and the Germans have been very welcoming of the 
immigrant population from Turkey that has come there and now in 
some cases, you know the other groups that come there also.
    But our European allies again, many of these countries are 
underresourced in terms of these kind of threats, and the Visa 
Waiver Program does give an opportunity. I know Director 
Mueller over the time when he was director of the FBI 
repeatedly testified that he opposed the Waiver Program because 
of the ease of access or the easier access for individuals if 
they were radicalized in Europe that have European passports 
that could come here.
    That being said, there was no intention ever of changing 
that policy based on the business between Europe and the United 
States and the complete other concerns of interaction that we 
have that would become more difficult if visa program was 
eliminated.
    Mr. Keating. Okay. Mr. Chairman, my time is up. I yield 
back.
    Mr. King. The gentleman yields back. I have one question I 
would like to pursue. Dr. Gartenstein-Ross, in your testimony 
you mentioned the perhaps greater threat if Syrian refugees do 
come in of those who are vetted but yet have family members, 
children perhaps, who become radicalized after they are here.
    I would like to ask Mr. Fuentes first: Is it possible; what 
is the practicality of the FBI surveilling, maintaining a 
surveillance of Syrian refugees when they come in? Would that 
violate FBI procedures? Are there sufficient resources to do 
it? Could it be effective? Then I will ask the other two 
witnesses for their comments on that.
    Mr. Fuentes. I think the answer would be no to all of that. 
I think the policy of just following people for the sake of it 
doesn't exist. There has to be some predication that there has 
been information received or some indication that they are 
either involved in criminal activity or some activity that 
threatens National security.
    The fact is that when you look at the number of instances 
that come up that you and I have both been on CNN talking 
about, is this an intelligence failure? When you have over 1 
million names on the TIDE list for example, and a few thousand 
FBI agents and analysts, there is going to be no way to keep 
track of that. We hear this over and over. Well, at one time 
this person was on the FBI's radar. Well, a million people are 
on the FBI's radar unfortunately. So you really have to have 
that narrowed down with some degree of specificity and 
predication before you can actually initiate it.
    Now, right now the FBI, as Director Comey has mentioned, 
they have active counterterrorism investigations in every 
single State. Then when you take some locations, if that is 
just one per State minimum, let's say New York, let's say in 
Chicago, in the District of Columbia, those could be in the 
dozens; they could be in the hundreds, with that many more 
number of subjects.
    So you could be looking at tens of thousands of potential 
subjects that there is a reason to follow them but it can't be 
done, not in every case. They have to prioritize. They have to 
triage who they are looking at and how many resources are 
devoted to it. So the practicality in a refugee vetting 
process, I think just doesn't exist.
    Mr. King. Dr. Gartenstein-Ross, based on what Mr. Fuentes 
just said, do you see any answer to the question that you 
raised about the threat of radicalization of those who come to 
the country?
    Mr. Gartenstein-Ross. I think it is a community for which 
you would have an elevated level of risk in that regard. I 
mean, there is a standard narrative in a group like Jabhat al-
Nusrah could use, and the reason I focus on al-Nusrah is 
because I think the Islamic State would actually have more 
trouble recruiting in this population. It wouldn't be 
impossible, but it would have a bit more trouble because they 
understand what the Islamic State has done. It is much more 
overtly brutal.
    Nusrah in contrast is brutal, but it doesn't, you know, 
tweet out photos of people they have beheaded recently. They 
don't release videos of them drowning people in a cage in a 
swimming pool. They also, unlike the Islamic State, work very 
well with other groups at a local level. So in that regard, the 
risk would be there as I stated it. The area where I think in 
the future we can reduce risks is in terms of vetting people as 
they come in because that is one of the significant questions 
that has been raised. I should point out that our vetting 
system is very antiquated. You know, when we are talking about 
what we look for, what we look for, has Acunia come up? Is 
their name in a database?
    One thing that we should think about is the world is moving 
towards a big data solution for intelligence across the board. 
It is not always the solution to everything. There are 
downsides to big data, but we haven't thought about it in this 
context. Now, let me say I do work, you know, on this from both 
sides. I am a security studies person. I also do work on asylum 
cases for asylees as an expert witness, often pro bono. I talk 
about country conditions in places like Somalia or Afghanistan.
    One of the things that is disturbing about our asylum 
process is it is really hard to determine if someone is lying. 
You have their story, and when I am an expert witness, I am not 
there to say if they are telling the truth. I am just there to 
say, does their story match with what we know about the 
country? Now, when we talk about the big data approach, what we 
don't have, if someone says okay I was in Somalia, I was in 
Mogadishu in September 2010, and my family was massacred by 
Shabaab. Well, did that happen?
    What I think we should start to move towards is a situation 
where we take sig acts, significant acts, from these theaters 
and put them in a database that can be cross-checked in 
multiple ways so we can see, does their story actually match 
with what was going on on the ground at that particular time at 
a granular level?
    No. 2, when you look at where they were coming from, do 
they match with people who were known as militants? Right now 
we don't have the sort of system in place where you can 
actually start to get a chance of getting at clean skins or 
getting at people who there might be some corroborating 
evidence or some evidence that would tend to refute their story 
or show that they pose a risk.
    That is something we should figure out for the future 
because this will not be the last refugee crisis that we face, 
and getting better at our screening will make us safer as a 
Nation.
    Mr. King. Dr. Jones.
    Mr. Jones. Very briefly, on your first FBI question having 
served last year on the FBI Director's 9/11 Commission and 
looking at FBI resources now, I mean I strongly agree with Mr. 
Fuentes' comment, especially when you add the rise in social 
media use by these groups, the cyber attacks, et cetera. It 
would not be good for U.S. freedom to be following people 
without prior indications that they were involved in terrorism.
    But I would also note, just to complicate this a little 
bit, that based on past individuals that have been plotting or 
have attacked in the United States, it is not clear to me that 
refugees are more likely to radicalize than others. We have 
lots of people in the United States that are not refugees that 
have radicalized, that have converted. So, you know, the 
problem is clearly much bigger than this.
    The last thing I would note--and this goes to a question 
that Mr. Keating noted earlier, too--is I think the more 
information we have about these individuals, DNA, biometrics, 
et cetera, the better it will be, including I do think it is 
worth considering rescreening procedures before they become 
eligible for permanent resident status, so potentially looking 
at several layers here.
    Mr. King. I would just conclude by saying that I think we 
have raised issues today that there are no, in no way any 
definitive answers for. I heard what Mr. Katko said about we 
should never allow refugees in if there is a threat of 
terrorism. I understand that.
    On the other hand, from talking to Jordanian officials, and 
they are our closest ally, if nothing else just for the 
diplomatic help that it would give Jordan, we have to show we 
are doing something. Otherwise King Abdullah could be losing 
some of his support in Jordan, so it is in our National 
interest, apart from any moral imperative or whatever, that 
something be done, and we have to find ways to do it, though, 
where the vetting is increased, I think or vetted.
    So with that, I would--does the Ranking Member have any 
questions?
    Mr. Higgins. Yes. For context, the United Nations has 
indicated that of Western nations resettling Syrian refugees, 
Germany will resettle the largest number, some 30,000; followed 
by Canada, about 11- or 12,000. According to the State 
Department, the United States will resettle about 1,000 to 
2,000 this year. More in coming years but, this year. That 
disparity is attributed to what? Less of a rigorous assessment 
screening process in Germany and Canada versus the United 
States? Dr. Jones.
    Mr. Jones. I don't know what the process is for why Germany 
any has allowed more and what the policy discussions are; but I 
will say that when you look at the foreign fighter problem in 
Europe, including in Germany, that is connected to Syria, the 
threat in Germany is serious. They have got more people in 
Syria than we have.
    Mr. Higgins. Mr. Fuentes.
    Mr. Fuentes. I think we as Americans have pretty much been 
unaware for many years of the nature of the threat in Europe, 
and particularly al-Qaeda. Back when 9/11 happened, that 
obviously dominated U.S. news for weeks and months. What most 
Americans never heard of was that very week, a couple days 
after 9/11, al-Qaeda was going to blow up the U.S. Embassy in 
Paris and conduct bombing attacks in the Netherlands and in 
Belgium at NATO facilities.
    Seven European countries were working with the FBI on those 
al-Qaeda cells at the time and neutralized them, and I think 14 
people were arrested, stood trial, were convicted, served jail 
sentences. One of them that was the coordinator of the Embassy 
attack in Paris later was released from jail and helped conduct 
or coordinate the Charlie Hebdo attack. So these are cells that 
go back more than a decade in those countries, Germany 
included. You know, this has been on-going, and I think most 
Americans don't realize the extent of the threat that has 
already been in Europe all these years and most of the time 
successfully neutralized but not always.
    Mr. Gartenstein-Ross. When you are asking about the 
disparities, I think one of the primary things that is at play 
with respect to Germany is that you have had a large amount of 
Syrian refugees come into Europe through the central 
Mediterranean route. It is a route coming in through Libya. In 
the third quarter of last year, there were over 75,000 
refugees, not refugees rather, but irregular migrants who went 
in through this route.
    One of the majority groups, one of the two largest groups 
for that quarter, was Syrians of whom they are refugees. Now 
when Syrians get to Europe, you have in international law, a 
rule against refoulement, that is a rule against returning them 
to the country that they were forcibly expelled from. So when 
they are there, something has to be done with them. In part, 
Europe trying to set a policy for what to do with Syrians who 
have gotten there through this route I think plays somewhat of 
a role in terms of why Germany has taken such high numbers.
    With respect to Canada, they have kind of a different set 
of policies and norms with respect to refugee populations than 
the United States does, but I wouldn't attribute this to there 
necessarily being worse screening in any of these countries 
than in the United States.
    Mr. Higgins. Got it. Thank you very much. The panel has 
been very helpful, and I yield back, Mr. Chairman.
    Mr. King. I want to thank all the witnesses for their 
testimony. This has been I think a very illuminating meeting. 
It certainly brought out information that I think is vital for 
the record. It has also raised questions that we have address. 
I would perhaps indulge on you if we could consult with you as 
we go forward. Any thoughts or advice you have as this matter 
goes forward, we would greatly appreciate it.
    Also the Members of the subcommittee may have some 
additional questions for you, and we ask you to respond in 
writing if you would. With that, pursuant to Committee Rule 
7(E), the hearing record will be held open for 10 days. Without 
objection, the subcommittee stands adjourned.
    [Whereupon, at 11:25 a.m., the subcommittee was adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
